TOP MANAGEMENT CHALLENGES
     Department of Transportation

     Report Number: PT-2007-004
    Date Issued: November 15, 2006
           U.S. Department of
                                                     Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   INFORMATION: DOT’s FY 2007                               Date:    November 15, 2006
           Top Management Challenges
           Report Number PT-2007-004
  From:    Calvin L. Scovel III                                  Reply to
                                                                 Attn. of:   J-1
           Inspector General
    To:    The Secretary
           Deputy Secretary

           The Office of Inspector General (OIG) has identified 10 top management
           challenges for the Department of Transportation (DOT) for fiscal year (FY) 2007.
           In considering the items for this year’s list, we continue to focus on the
           Department’s key strategic goals to improve transportation safety, capacity, and
           efficiency.

           The OIG’s list for FY 2007 is summarized below. This report and the
           Department’s response (see Appendix) will be incorporated into the DOT
           Performance and Accountability Report, as required by law. The exhibit to this
           report compares this year’s list of management challenges with the list published
           in FY 2006.

             • Defining, Developing, and Implementing Strategies To Improve Congested
                Conditions on the Nation’s Highways, Ports, Airways, and Borders
                      - Leading Stakeholders
                      - Overcoming Organizational Structures That Inhibit Intermodal Tradeoffs
                      - Funding Future Infrastructure Needs Will Be a Challenge
                      - Proposals for Market-Based Solutions To Better Utilize Existing Capacity
                        Raise Important Policy Issues
                      - Keeping Planned Short- and Long-Term Aviation Capacity Enhancing
                        Initiatives on Schedule To Relieve Congestion and Delays
                                                                          2

• FAA Reauthorization—Reaching Consensus on a Financing Mechanism
 To Fund FAA and Establishing Funding Requirements
    - Deciding on a Financing Mechanism That Promotes a More Efficient Use
      of the Air Traffic Control System and Is Considered Equitable by All
      Users
    - Determining the Next Generation Air Transportation System’s Funding
      Requirements, Quantifying Expected Benefits, and Developing a
      Roadmap for Industry To Follow
    - Continuing Efforts To Address the Expected Surge in Air Traffic
      Controller Attrition
    - Using the Cost Accounting System To Control Costs and Improve
      Operations
• Responding to National Disasters and Emergencies—Assisting Citizens
 and Facilitating Transportation Infrastructure Reconstruction
    - Clarifying  Roles and Responsibilities Given Expanded Mission
      Requirements
    - Ensuring Continued Vigilance in Protecting Taxpayer Funds Spent for
      Relief and Recovery Efforts
• Strengthening Efforts To Save Lives by Improving Surface Safety
 Programs
    - Promoting Improved Performance Measures and Enhanced State
      Accountability To Maximize Efforts To Reduce Fatalities Caused by
      Impaired Driving
    - Building on Successful Efforts To Better Enforce Motor Carrier Safety
      Regulations
    - Ensuring the Integrity and Future Modernization of the Commercial
      Driver’s License Program
    - Enhancing Railroad Safety Through Improved Oversight of Grade-
      Crossing Reporting and Better Identification of Trends
• Aviation  Safety—Performing Oversight That Effectively            Utilizes
 Inspection Resources and Maintaining Aviation System Safety
    - Advancing Risk-Based Oversight Systems
    - Maintaining a Sufficient Inspector Workforce
    - Reducing the Risk of Accidents on the Ground and in the Air
                                                                           3

• Making the Most of the Federal Resources That Sustain Surface
 Transportation Infrastructure         Improvements    by   Continuing    To
 Emphasize Project Oversight
     - Initiatives To Improve the Oversight of Highway Funds Need To Be
       Implemented Effectively To Ensure That Projects Are Completed On
       Time, Within Budget, and Free From Fraud
     - FHWA’s Oversight Must Include Actions To Ensure That Highway
       Tunnels Are Safe for the Driving Public
     - FTA Must Continue To Exercise Vigilant Oversight To Ensure Large and
       Complex Transit Infrastructure Projects Are Completed on Time and
       Within Budget
• Achieving Reform of Intercity Passenger Rail
     - Amtrak Must Do More To Improve Cost-Effectiveness, Operate
         Efficiently, and Improve Performance
     - Amtrak Needs a New Model for Providing Passenger Rail Transportation
• Improving Acquisition and Contract Management To Reduce Costs and
 Eliminate Improper Payments
     - Institutionalizing the Use of Defense Contract Audit Agency Contract
         Audit Services
     -   Strengthening Financial Management Oversight of Institutions
         Performing Research Under DOT Cooperative Agreements and Grants
     -   Promoting More Vigilance and Enhanced Oversight of FAA’s Acquisition
         and Contract Management Practices
     -   Ensuring That Department Employees Maintain High Ethical Standards
     -   Enforcing Suspensions and Debarments More Rigorously
• Protecting,    Monitoring, and Streamlining Information Technology
 Resources
     - Enhancing Air Traffic Control Systems Security Through Resource
         Commitment and Progress Measurement
     - Meeting New Security Standards While Recertifying Systems Security
     - Securing the Consolidated IT Infrastructure and Eliminating Operating
       Administrations’ Fragmented Systems Backup/Recovery Sites
     - Working With Operating Administrations To Strengthen Oversight of IT
       Investment and To Streamline Duplicative IT Systems

• Strengthening DOT’s Coordination of Research, Development, and
 Technology Activities and Funding
     - Ensuring Effective Coordination of DOT’s Research, Development, and
         Technology Activities
                                                                                4

If you have any questions concerning this report, please call me at (202) 366-1959
or Todd J. Zinser, Deputy Inspector General, at (202) 366-6767. You may also
contact Theodore P. Alves, Principal Assistant Inspector General for Auditing and
Evaluation, at (202) 366-1992.


                                        #
                                           Table of Contents


Defining, Developing, and Implementing Strategies To Improve Congested
Conditions on the Nation’s Highways, Ports, Airways, and Borders ..................... 6

FAA Reauthorization—Reaching Consensus on a Financing Mechanism To
Fund FAA and Establishing Funding Requirements ............................................. 12

Responding to National Disasters and Emergencies—Assisting Citizens
and Facilitating Transportation Infrastructure Reconstruction ............................. 18

Strengthening Efforts To Save Lives by Improving Surface Safety
Programs ................................................................................................................ 22

Aviation Safety—Performing Oversight That Effectively Utilizes
Inspection Resources and Maintaining Aviation System Safety .......................... 28

Making the Most of the Federal Resources That Sustain Surface
Transportation Infrastructure Improvements by Continuing To Emphasize
Project Oversight ................................................................................................... 34

Achieving Reform of Intercity Passenger Rail ...................................................... 39

Improving Acquisition and Contract Management To Reduce Costs and
Eliminate Improper Payments ............................................................................... 42

Protecting, Monitoring, and Streamlining Information Technology
Resources ............................................................................................................... 48

Strengthening DOT’s Coordination of Research, Development, and
Technology Activities and Funding ...................................................................... 54

Exhibit. Comparison of FY 2007 and FY 2006 Top Management
Challenges ............................................................................................................. 58

Appendix. OST Comments ................................................................................... 59
                                                                                                                    6



1. Defining, Developing, and Implementing Strategies To
      Improve Congested Conditions on the Nation’s
      Highways, Ports, Airways, and Borders
The Department is implementing new initiatives to reduce transportation
congestion nationwide, and this is the first year that the Office of Inspector
General has reported it as an emerging issue. The Department has taken initial
steps to pursue cross-modal approaches with various stakeholders; yet, there are
difficult challenges the Department must overcome to achieve solutions that will
provide short- and long-term benefits to the traveling public.

Transportation congestion reduces Americans’ quality of life and limits economic
growth. Time spent sitting in traffic or on a runway is time taken away from our
families and communities, wastes billions of gallons of fuel, and costs billions of
dollars in lost productivity. 1 The benefits businesses and consumers realized from
reductions in the cost of moving freight in recent years 2 could be erased if
projected increases in freight transportation are not properly addressed. 3 In
addition, the more than doubling of international trade in recent years has led to
congestion at border gateways, which is expected to worsen as trade and security
requirements increase. 4 Congestion can be tackled by improving the efficiency
and productivity of existing facilities and investing in new capacity through
projects that will have the highest rate of return.

The Secretary’s May 2006 plan, the National Strategy to Reduce Congestion on
America’s Transportation Network, provides a blueprint for Federal, state, and
local authorities to reduce congestion. The plan’s six elements are: relieve urban
congestion by establishing Urban Partnership Agreements with selected
communities, allow the private sector to assume a broader role in investing in
transportation, promote operational and technological improvements that increase
information dissemination and incident-response capabilities, establish a new
“corridors of the future” competition, address freight bottlenecks and expand

1
    The Texas Transportation Institute estimated that in 2003, congestion in the top 85 urban areas caused 3.7 billion
    hours of travel delay and 2.3 billion gallons of wasted fuel, for a total cost of $63 billion.
2
    The cost of moving freight dropped from 16.1 percent of U.S. Gross Domestic Product in 1980 to approximately
    10.0 percent in 2000. The Freight Story: A National Perspective on Enhancing Freight Transportation. U.S.
    Department of Transportation. November 2002.
3
    In terms of tons transported, domestic freight transportation by truck, rail, air, water, and air grew by about
    20 percent from 1993 to 2002 and is expected to increase by another 65 to 70 percent by 2020. Freight Facts and
    Figures 2005. U.S. Department of Transportation.
4
    Between 1990 and 2000, U.S. international trade more than doubled in inflation-adjusted terms, rising from about
    $900 billion to $2.2 trillion. According to the Federal Highway Administration, “Many gateways now suffer from
    congestion, which is expected to intensify as a result of increased demand and enhanced security measures.” The
    Freight Story: A National Perspective on Enhancing Freight Transportation. U.S. Department of Transportation.
    November 2002.
                                                                                 7

freight policy outreach, and accelerate major aviation capacity projects and
provide a future funding framework.

To date, the Department has begun a public outreach campaign to state legislators,
transportation officials, and chief executive officers of major companies to
encourage multi-state approaches to congestion, public-private partnerships, and
multi-modal strategies. The Department has instituted working groups that meet
weekly and comprise representatives from different disciplines to encourage
consideration of multi-modal solutions. The Department has established target
outcomes and developed performance measures and milestones to gauge progress
towards these targets.

The challenges facing the Department in implementing this initiative and reducing
congestion are:

 • Leading stakeholders who are not used to following when the Department
   neither controls the purse strings nor has the final decision making power,
 • Overcoming stovepipe programs and organizational structures that inhibit
   intermodal tradeoffs among transportation solutions,
 • Meeting demands for additional resources in circumstances of constrained
   Federal resources,
 • Achieving acceptance of market-based solutions to better utilize existing
   capacity, and
 • Keeping aviation capacity improvements on schedule.

Leading Stakeholders
Solutions to congestion problems cut across transportation modes; however, the
Department’s role in funding and/or approving projects varies greatly among the
modes. The Department funds and operates the air traffic control system, but
states and localities set highway and transit priorities for most projects in these
areas, and ports and freight railroads largely decide on investments in capacity
enhancements with no Federal funding and little Federal involvement. For some
modes, particularly highways and transit, Congress is actively engaged in deciding
which projects to fund.

The Department faces a difficult challenge in convincing other stakeholders to
follow its lead and make congestion a unifying priority in their investment
decisions. To be successful, the Department needs to gain maximum leverage
from those tools it has to influence decisions on transportation infrastructure
investments (i.e., its “bully pulpit”), prioritization of regulatory reviews and
approvals, and alignment of the Department’s data and research agenda to
spotlight the impact of congestion and the benefits from its relief.
                                                                                    8

Overcoming Organizational Structures That Inhibit Intermodal Tradeoffs
The different transportation modes have rarely worked together to determine the
best solution to congestion in any particular bottleneck. To relieve highway
congestion, for example, the solution may be to develop alternatives to building
new highways, such as freight rail, transit, intercity passenger rail, or barge.
However, the Department is organized by transportation mode and the different
pots of transportation funding typically can only be used to support a single modal
solution. The Alameda Corridor project is an example of effective cooperation
among departmental modal administrations. In that project, the Federal Highway
Administration and the Federal Railroad Administration worked cooperatively to
create a 20-mile long rail cargo expressway linking the ports of Los Angeles and
Long Beach to the intercontinental rail network near downtown Los Angeles.
Separating rail and highway traffic resulted in more efficient freight rail
movements and reduced traffic congestion on surface streets.

The Department needs to convince stakeholders, including its own employees, that
congestion, and the intermodal tradeoffs required to solve congestion, will be a
long-term priority that will endure beyond any changes in departmental leadership.

Funding Future Infrastructure Needs Will Be a Challenge
Over the long term, the Department will need to find new funding solutions for
surface, maritime, and aviation infrastructure, either seeking new sources of
funding or using existing funds in better ways.               The National Surface
Transportation Policy and Revenue Study Commission created in The Safe,
Accountable, Flexible, and Efficient Transportation Equity Act: A Legacy for
Users (SAFETEA-LU) and chaired by the Secretary has the potential to provide
important insights for the Department and Congress to consider regarding funding
surface transportation needs in the future. The Department should carefully weigh
all alternatives for funding the Nation’s surface transportation needs to set the
groundwork for the next surface transportation reauthorization. In particular, there
is a growing interest of private sector capital investors in surface transportation
and with it, concerns in some sectors regarding the appropriateness of these
investments. While the Department is working to remove or reduce barriers to
private sector investment in the construction and operation of transportation
infrastructure, it also needs to articulate the case that these investments are in the
public’s long-term interest. The Department’s challenge regarding funding the
Nation’s aviation needs will be to achieve consensus on a financing mechanism
that meets the Federal Aviation Administration’s (FAA) future resource needs,
promotes a more efficient use of the air traffic control system, and addresses users’
equity concerns.
                                                                                   9

Proposals for Market-Based Solutions To Better Utilize Existing Capacity
Raise Important Policy Issues
Building new roads and runways is one way to address congestion, but equally
important is improving the efficiency and productivity of existing infrastructure.
Value pricing, also referred to as peak-period or congestion pricing, is a
mechanism that allocates the costs of congestion more equitably to its
contributors. For highways, this can take the form of tolls that vary by the level of
demand, tolls that vary by level of occupancy, and priced express lanes. For
aviation congestion, the Department has a long-term goal of using a market-based
strategy to reduce congestion at LaGuardia Airport and has the opportunity to
consider congestion pricing as part of FAA’s reauthorization proposal.

The Department’s challenge will be to educate the public on pricing strategies and
their benefits. This includes overcoming the perception of double taxation
(i.e., the belief that the roads have already been paid for) and income-equity
issues. The Department will also need to be vigilant in monitoring collateral
effects of market-based pricing strategies on its constituents, such as the impact of
these strategies on air service in small communities.

Keeping Planned Short- and Long-Term Aviation Capacity Enhancing
Initiatives on Schedule To Relieve Congestion and Delays
In the short term, the Department needs to keep planned infrastructure projects on
track. While new technologies can enhance airport arrival rates, new runways
provide the most increases in capacity. FAA reports that since 2000, 12 new
runway projects have been built at some of the Nation’s busiest airports. A major
airport project at Chicago O’Hare is underway, and additional runways are
expected to be completed, including ones at airports in Boston, Philadelphia, and
Seattle, between now and the end of 2008. Table 1-1 provides information on the
runway projects that are tracked in FAA’s Operational Evolution Plan (OEP), the
Agency’s overall blueprint for enhancing capacity and reducing delays.
                                                                                                            10

      Table 1-1. Status of Major New Runway Projects, September 2006

       Airport              Initial OEP              Current               Phase          Current Cost
                            (June 2001)             Estimated                              Estimate*
                             Estimated              Completion                              (in Millions)
                          Completion Date             Date
  Boston Logan                  Dec 2005               Nov 2006        Construction                $87
  Philadelphia              Not in initial OEP         Dec 2007        Construction                $65
  Seattle-Tacoma                Nov 2006               Nov 2008        Construction             $1,129
  Los Angeles               Not in initial OEP         Jun 2008        Construction               $333
  Washington-Dulles         Not in initial OEP         Nov 2008        Construction               $243
  Chicago O’Hare            Not in initial OEP         Nov 2008        Construction               $619
  (Phase I)
 * Estimated cost data for Boston Logan, Philadelphia, Seattle-Tacoma, Los Angeles, and Washington-Dulles were
   obtained from airport sponsors. Estimated cost data for Chicago O’Hare were obtained from an FAA update to
   its quarterly report.

These six runway projects are expected to significantly increase airport operations
or contribute to delay reduction. The Department’s challenge is to make sure the
navigation equipment, new procedures, and airspace modifications are in place
when these projects are commissioned to get the expected capacity benefits.

As we have noted in the past, airspace changes—even without a new runway—can
enhance the flow of air traffic. In May 2005, we made recommendations aimed at
improving the overall management and execution of FAA’s airspace redesign
efforts, including coordination among FAA organizations. FAA has taken some
steps to address our concerns and now is pursuing 20 airspace projects. The
challenges facing FAA’s airspace redesign efforts focus on completing complex
environmental reviews and matching projects with available funds.

In the longer term, the Department and FAA need to continue to develop concepts,
milestones, and transition strategies for the next generation air traffic management
system being developed by FAA’s Joint Planning and Development Office. The
next generation system is expected to accommodate three times more aircraft
through, among other things, increasing automation for controllers and shifting
greater responsibility to the cockpit. The importance of FAA’s efforts to develop
the next generation system and corresponding funding requirements are included
in our views on the challenges facing FAA in the upcoming reauthorization
process.
                                                                           11

For further information, the following reports and testimonies can be seen on
the OIG web site at http://www.oig.dot.gov:

 • Perspectives on the Progress and Actions Needed To Address the Next
   Generation Air Transportation System
 • Chicago’s O’Hare Modernization Program
 • Airspace Redesign Efforts Are Critical To Enhance Capacity but Need Major
   Improvements
 • Aviation Industry Performance: Trends in Demand and Capacity, Aviation
   System Performance, Airline Finances, and Service to Small Airports (June
   2005 and August 2006)
 • Review of December 2004 Holiday Air Travel Disruptions
 • Audit of Small Community Aviation Delays and Cancellations
 • Observations on Current and Future Efforts To Modernize the National
   Airspace System
 • Observations on the Progress and Actions Needed To Address the Next
   Generation Air Transportation System
                                                                                12


 2. FAA Reauthorization—Reaching Consensus on a
      Financing Mechanism To Fund FAA and
      Establishing Funding Requirements
The aviation excise taxes that support Federal Aviation Administration (FAA)
programs and the authorization underlying most of those programs (VISION 100)
expire at the end of fiscal year (FY) 2007. Over the next year, the congressional
aviation agenda will be dominated by two separate but related issues: how to
finance FAA programs and the level of funding those programs require. Moving
forward with reauthorization will require the Department, FAA, and Congress to
reconcile very divergent stakeholder positions regarding potential financing
mechanisms, obtain more precise funding requirements, and ensure tighter
controls over Agency costs.

To its credit, FAA has hosted forums and held discussions with aviation
stakeholders and is developing a proposal regarding the best way to finance FAA.
The challenges facing FAA in this regard include:

 • Deciding on a financing mechanism that promotes a more efficient use of the
   air traffic control system and is considered equitable by all users;
 • Determining the Next Generation Air Transportation System’s (NGATS)
   funding requirements, quantifying expected benefits, and developing a
   roadmap for industry to follow;
 • Continuing efforts to address the expected surge in air traffic controller
   attrition; and
 • Using its cost accounting system to control costs and improve operations.

Deciding on a Financing Mechanism That Promotes a More Efficient Use
of the Air Traffic Control System and Is Considered Equitable by All
Users
There has been considerable debate over whether the current excise tax system is
fair, is equitable, and will generate sufficient revenues to meet future FAA needs,
particularly regarding NGATS. Stakeholders have very divergent, and at times
opposing, views on the answer to this question.

Proponents of the current system note that excise tax revenues, which are
deposited into the Aviation Trust Fund, have increased over the past 2 years, and
the estimates show revenues continuing to increase over the next decade.
However, others note that revenues are less than what was estimated previously,
when events such as the September 11th attacks impacted the industry as a whole.
                                                                                  13

While Trust Fund revenues are an important aspect of the debate, they are only
one part of the equation. Determining whether projected revenues will be
sufficient to cover FAA’s costs depends on assumptions regarding future
appropriations for FAA programs, such as airport grants and capital programs, as
well as contributions from the General Fund. It is extremely difficult, if not
impossible, to determine the “right” assumptions regarding these factors, making it
equally difficult to answer whether the current financing system will be adequate
in the future.

A more fundamental question regarding FAA’s future is whether the air
transportation system will be sufficient to meet the anticipated future demand for
air travel. FAA projects that the current system (or business as usual) will not be
sufficient to meet future demands. Over 700 million passengers used the system
last year, and this number is forecast to grow to over 1 billion by 2015. As part of
its overall solution to this problem, FAA should examine whether a financing
system can promote a more efficient use of the air traffic control system. The
Agency can use the expiration of the current aviation excise taxes as an
opportunity to seek consensus on implementing such a system. There are a
number of options for FAA to consider.

Excise Taxes. FAA has long been supported by a system of excise taxes, the
revenues from which are deposited into the Aviation Trust Fund. Almost
70 percent of those revenues come from the 7.5 percent ticket tax and
$3.30 segment tax. Excise taxes are easy to collect, familiar to air travelers and
industry, and difficult to evade. While the current taxes are not directly related to
the FAA’s costs in providing the specific services used, the General Aviation
community argues that they fairly allocate costs among users. However, airlines
argue that they pay disproportionately more for the services they receive. In
addition, as FAA points out, excise taxes are not linked to usage or cost of
providing services. As such, excise taxes provide little incentive for the efficient
use of FAA services or for the more cost effective provision of services by the
Agency. Furthermore, if excise tax revenues did increase, this would not
automatically translate into an increase in spending on FAA programs under
current budget rules.

User Charges. User charges attempt to correlate the cost of a providing a service
to the fees collected for using that service. In practice, the strength of this
correlation can vary significantly. For example, over 100 countries base their user
charges on a combination of aircraft weight and distance flown. These charges are
more closely related to costs than are excise taxes but less closely related than a
true cost-based fee-for-service user charge.

User charges can provide incentives for users to be more efficient in their use of
FAA services and for FAA to control costs. These incentives become stronger the
                                                                                    14

closer the charges approximate cost-based fee-for-service charges and the degree
to which there is appropriate user oversight of the charges and their expenditure.
Also, cost-based fee-for-service user charges are more likely than excise taxes to
fall on the mandatory side of the budget, allowing them to be spent without
congressional action.

However, there is intense controversy regarding what type of fees should be
charged, who should pay what, and how—if at all—the current oversight of FAA
spending should be altered. There is also disagreement on the cost of
administering the fees and the burden on the aviation community of paying them.
We believe that any proposal to give FAA more flexibility and additional funds
needs to be accompanied by strong oversight mechanisms to ensure funds are
spent efficiently.

Should FAA determine that a user charge can be developed that promotes the
efficient use of FAA services, it faces a formidable challenge in making the case
for change and obtaining consensus on what that change should entail. To meet
this challenge, FAA would need to demonstrate clearly and convincingly why the
current excise tax financing mechanism is not adequate and how its proposed
solution would fix this problem.

Borrowing/Bonding. This alternative would either permit the FAA to borrow
directly from the Treasury or permit it, or another entity on its behalf, to sell bonds
in the private markets. This solution is typically considered in conjunction with
user charges, although such charges are not a prerequisite. The borrowing or
bonds would be repaid or backed by FAA-generated revenues, such as excise
taxes or user charges.

Borrowing or bonding authority would provide FAA with a large infusion of
funds, presumably for capital projects, without requiring similarly large upfront
increases in excise taxes or user fees. However, granting this authority would
require significant legislative changes to implement and waivers of current budget
rules to be effective. As we have previously noted, borrowing or bonding
authority by itself provides little incentive for either users or FAA to operate
efficiently and would require a powerful oversight mechanism to ensure that FAA
invests wisely and controls costs.

Determining the Next Generation Air Transportation System’s Funding
Requirements, Quantifying Expected Benefits, and Developing a Roadmap
for Industry To Follow
Closely related to the question of how to finance FAA is what level of funding to
provide to it. As we previously stated, the answer to this question determines the
level at which excise taxes, user fees, or borrowing/bonding needs to be set to
support the program authorizations. FAA’s future funding requirements will be
                                                                                  15

driven, in large part, by the need to change the current air transportation system to
meet the anticipated demand for air travel and reduce FAA operating costs.

FAA’s Joint Planning and Development Office (JPDO) was mandated by
Congress to develop a vision for the next generation air transportation system in
the 2025 timeframe and coordinate diverse agency research efforts. Currently,
participating agencies include the National Aeronautics and Space Administration,
the Department of Commerce, the Department of Defense, and the Department of
Homeland Security.

Key challenges for the Department, FAA, and the JPDO focus on what the new
office can deliver and when and how much its proposals will cost. These are
central questions in the debate about how to finance FAA programs and will shape
the size, requirements, and direction of the capital program for the next decade.

Moving to the next generation system is a high-risk effort and will require
significant investments from FAA (new ground systems) and airspace users (new
avionics). The JPDO is conducting workshops with industry to gather input on the
potential costs of the future system. FAA’s Air Traffic Organization (ATO) and a
working group of the Agency’s Research, Engineering, and Development
Advisory Committee have developed some estimates, but they have not been
finalized or approved by senior FAA management. There are considerable
unknowns, and costs depend on, among other things, performance requirements
for new automation and weather initiatives and to what extent FAA intends to
consolidate facilities.

Preliminary estimates from the ATO suggest that next generation air traffic
management initiatives would cost a total of $4.4 billion for the next 6 years above
the current investment levels in FAA’s Capital Investment Plan. These
preliminary numbers do not distinguish between development efforts, adjustments
to existing programs, or implementation of new initiatives.

FAA will have to analyze information from the JPDO/industry workshops and
other sources and provide Congress with expected funding requirements and when
the funding will be needed. When transmitting this information to Congress, FAA
should provide cost data on three vectors—research and development needed
(including demonstration projects), adjustments to existing projects, and estimates
for implementing NGATS initiatives.

Also, another challenge that was raised at the JPDO workshops concerns the need
for FAA to clearly define the expected benefits from NGATS initiatives,
particularly for projects that require airspace users to equip with new avionics. At
an April 2006 workshop, industry participants asked FAA for a “service roadmap”
that (1) specifies required equipage in specific time increments, (2) bundles
                                                                                  16

capabilities with clearly defined benefits and needed investments, and (3) uses a
4- to 5-year equipage cycle that links with aircraft maintenance schedules. It will
be important for FAA to provide industry with this information.

Continuing Efforts To Address the Expected Surge in Air Traffic
Controller Attrition
Another challenge facing FAA is the hiring and training of over 11,000 new
controllers through FY 2015 as controllers hired after the 1981 strike begin
retiring. In December 2004, FAA developed a comprehensive workforce plan for
addressing that challenge. FAA issued the second in a planned series of reports in
June 2006. The workforce plan lays out the magnitude of the issue and establishes
broad measures for meeting the challenge. However, as we reported in May 2005,
the plan lacks essential details concerning two key areas.

First, the plan does not address staffing needs by location. Planning by location is
critical because FAA has over 300 terminal and en route air traffic control
facilities with significant differences in the types of users they serve, the
complexity of airspace they manage, and the levels of air traffic they handle.
Without accurate facility-level planning, FAA runs the risk of placing too many or
too few controllers at key locations. FAA recognizes this need and is in the
process of evaluating its facility staffing standards down to the sector and position
level for each location. FAA expects to complete this assessment for its
21 en route centers (its largest facilities) by the beginning of the next calendar
year. However, the estimated completion date for the entire project is not until
2008. Given the significant expenditures that will be required to hire and train
controllers over the next 10 years, FAA needs to ensure this project remains on
track.

Second, FAA’s plan does not identify how much it will cost. The cost of hiring
and training 11,000 new controllers will be substantial, particularly since it
currently takes new controllers 2 to 5 years to become fully certified. During that
time, FAA incurs the cost of trainees’ salaries and benefits as well as the cost of
the salaries and benefits of the certified controllers who instruct them one-on-one.
FAA needs to develop detailed cost estimates before the next submission of its
staffing plan, particularly now that questions concerning new controllers’ salaries
have been settled under a new contract with the National Air Traffic Controllers
Association.

Using the Cost Accounting System To Control Costs and Improve
Operations
Irrespective of the financing system ultimately decided upon, it is important that
FAA has an effective cost accounting system. This becomes more important for
those options that approach true cost-based user fees.
                                                                                17

FAA has substantially completed a cost accounting system for all its lines of
business and labor distribution systems for all its personnel. With a number of
further refinements, FAA should have a sufficiently accurate system to support
cost-based user fees. These refinements include making further progress in
assigning labor hours to projects, documenting an easily understandable and
readily available set of rules, and establishing new and specific labor codes to
track costs as duties change. Also important to this discussion is allocating FAA’s
costs to airspace users. FAA needs to finalize and publish its ongoing cost
allocation study.

In addition to its role in financing options, FAA’s cost accounting system can help
FAA more effectively manage its operations. However, FAA makes only limited
use of its cost accounting system for this purpose. To use the system effectively,
FAA must improve the accuracy and timeliness of the financial data, link the
system with its performance measures, and assign about $1 billion in
miscellaneous service-level costs (including depreciation) to facilities.

For further information, the following reports and testimonies can be seen on
the OIG web site at http://www.oig.dot.gov:

 • Observations on FAA’s Oversight of Aviation Safety
 • Perspectives on the Progress and Actions Needed To Address the Next
   Generation Air Transportation System
 • Perspectives on FAA’s FY 2007 Budget Request and the Aviation Trust Fund
 • FAA Has Opportunities To Reduce Academy Training Time and Costs by
   Increasing Educational Requirements for Newly Hired Air Traffic Controllers
 • Next Steps for the Air Traffic Organization
 • Report on Controller Staffing: Observations on FAA’s 10-Year Strategy for the
   Air Traffic Controller Workforce
 • Addressing Controller Attrition: Opportunities and Challenges Facing the
   Federal Aviation Administration
 • Opportunities To Improve FAA’s Process for Placing and Training Air Traffic
   Controllers in Light of Pending Retirements
 • FAA’s Management of and Control Over Memorandums of Understanding
                                                                                 18



3. Responding to National Disasters and Emergencies—
   Assisting Citizens and Facilitating Transportation
   Infrastructure Reconstruction
The Department of Transportation (DOT) has a significant role in assisting
citizens and helping states and localities to rebuild infrastructure damaged or
destroyed during natural and manmade disasters, such as earthquakes and acts of
terrorism. Under the National Response Plan, DOT is the lead agency for
coordinating transportation support (Emergency Support Function-1) during these
types of emergencies and serves as a support agency for 11 other critical functions.
For example, DOT works with state and local transportation departments and
industry partners after disasters to assess transportation infrastructure damage and
analyze associated impacts on transportation operations, nationally and regionally,
and to report changes as they occur. DOT also has statutory roles related to
preparedness for, response to, and recovery from emergencies, such as through the
Federal Highway Administration’s Emergency Relief program.

Since the 2005 Gulf Coast hurricanes, DOT has undertaken a number of initiatives
to enhance preparations for future disasters, such as examining regulations that
may impede the transportation industry’s ability to quickly respond to disasters
and developing procedures to overcome such hurdles. DOT has also been
responsive to our audit recommendations. For example, better procedures are now
in place for evaluating contractor price quotes and ensuring documentation of the
actual amount of services received before authorizing payments under the
Department’s emergency disaster relief transportation services contract.

The Department needs to ensure that it remains responsive to the changing
emergency operations environment and that relief and recovery aid is spent
appropriately. We see two key issues that DOT needs to focus on to better
mitigate the effects of future disasters:

 • Clarifying roles and responsibilities given expanded mission requirements and

 • Ensuring continued vigilance in protecting taxpayer funds spent for relief and
   recovery efforts.

Clarifying Roles and Responsibilities Given Expanded Mission
Requirements
As a result of the presidentially directed “lessons learned” review of the Federal
Government’s response to last year’s hurricanes, DOT has been given new
responsibilities for mass evacuations when disasters overwhelm state and local
government capabilities. The Department is now primarily responsible for
                                                                                      19

developing the capability to conduct and coordinate the potential movement of
millions of people within the general population during response efforts, while
also moving commodities, such as water, ice, and food, which composed the bulk
of DOT emergency disaster relief transportation services efforts in the past. DOT
has already taken many short-term actions, such as coordinating with the
American Red Cross to improve evacuation capabilities based on lessons learned
in 2005 and is examining a range of potential longer-term options, including ways
to maximize internal resources and processes to better respond to catastrophic
incidents requiring mass evacuations.

The number of disasters involving DOT relief and recovery assistance, including
those requiring Federal Emergency Management Agency (FEMA) mission
assignments for services under the Robert T. Stafford Disaster Relief and
Emergency Assistance Act, has increased during the past 3 years (see Figure 3-1).
In addition, the magnitude and duration of relief and recovery efforts in response
to the 2005 hurricanes has far surpassed those of any previous disasters in which
DOT has been involved. For example, many of the FEMA-requested emergency
transportation services required as a result of these hurricanes lasted for more than
6 months, which is much longer than the historically typical duration of several
weeks or a month or 2. We note that the Nation is also facing an avian bird flu
pandemic threat that, if it materializes, could last 18 months.

                   Figure 3-1: Departmental Disaster Involvement
           60
           50
           40
                                                                Incidents
           30
                                                                Mission Assignments
           20
           10
            0
                    2001       2002      2003     2004   2005
                Source: Office of the Secretary


To fulfill future emergency response responsibilities, DOT Office of the Secretary
and Operating Administration personnel must work together effectively with staff
at FEMA and other Federal agencies and with state and local government entities
across the Nation. This requires clearly defined missions, chains of command,
lines of communication, and adequate resources for effective intra- and inter-
agency coordination. DOT has reported that while the systems, plans, and training
it had in place for fulfilling its National Response Plan responsibilities during the
2005 Gulf Coast hurricanes generally worked well, they were not always sufficient
for the devastation wrought by Hurricanes Katrina, Rita, and Wilma in Louisiana,
Mississippi, Alabama, Texas, and Florida.
                                                                                                                  20

According to DOT, telecommunications systems, such as satellite phones, failed;
communications and coordination with FEMA staff were difficult; and lines of
authority were not always clear. DOT is taking steps to address these issues and
remain responsive to the changing emergency operations environment. For
example, the Department has been coordinating with FEMA and the U.S. Army
Corps of Engineers to improve communications capabilities and is emphasizing
disaster planning as part of its Security, Preparedness and Response Strategic Goal
in its “Strategic Plan for Fiscal Years 2006-2011.”

Ensuring Continued Vigilance in Protecting Taxpayer Funds Spent for
Relief and Recovery Efforts
History has shown that substantial infusions of funding for disaster relief and
recovery efforts increase the risk of fraud by those who exploit weaknesses in
Government oversight. Senior departmental leaders, including the Secretary, have
emphasized that DOT should provide effective stewardship and oversight of
disaster-related expenditures to prevent fraud, waste, and abuse. The general
consensus within and outside the Department has been that the scope of the
2005 Gulf Coast hurricane disasters presents special challenges for DOT and its
Operating Administrations to ensure that taxpayer interests are fully protected.
Public and congressional expectations for future disasters are likely to be no
different, given the stewardship and oversight standards set for the 2005 hurricane
disasters.

DOT expects to spend nearly $4.5 billion 5 responding to the 2005 Gulf Coast
hurricanes, primarily for emergency and permanent repairs to damaged roadways
and bridges on Federal-aid highways. Included in this amount is about
$500 million in Stafford Act disaster assistance for which FEMA will only
reimburse DOT after FEMA determines it can rely on DOT reports that the
expenditures were valid and appropriate. If FEMA determines that it cannot rely
on DOT reporting, it will disapprove the reimbursement requests until it is
satisfied that the expenditures were legitimate. The Office of Inspector General is
working with the Department’s Office of Intelligence, Security, and Emergency
Response to ensure sufficient Defense Contract Audit Agency coverage of DOT’s
emergency transportation services contract, which has a value not to exceed
$800 million. This contract is managed by the Federal Aviation Administration
and supports DOT-wide responsibilities during national emergencies, primarily in
response to FEMA mission assignments. We believe the cost of Defense Contract
Audit Agency audit coverage should be identified as a FEMA reimbursable item
for mission assignments involving the use of this contract and that DOT should
ensure these types of audits are accomplished, as appropriate.

5
    The majority of these funds are from two emergency supplemental appropriation bills signed into law in response to
    the 2005 Gulf Coast hurricanes, specifically Public Law 109-148, December 30, 2005 (119 Stat. 2680), and Public
    Law 109-234, June 15, 2006 (120 Stat 418).
                                                                                   21

DOT has also taken other actions to ensure more intense oversight of its
obligations and expenditures related to disaster relief and recovery activities. For
example, the Department’s Assistant Secretary for Budget and Programs/Chief
Financial Officer (1) created a special financial integrity team to ensure that
spending resulting from Hurricane Katrina is thoroughly documented and funds
are properly accounted for and (2) has already issued guidance on tracking and
reporting costs related to the 69 tasks assigned to the Department as part of the
National Strategy for Pandemic Influenza for planning, detecting, and responding
to this emerging threat.

Continued vigilance and follow-through at all levels of the Department is needed
to ensure that relief and recovery aid is spent appropriately. This is an especially
critical issue because the risks of disaster-related fraud, waste, and abuse increases
when 100 percent of the funding is provided by the Federal Government, as was
the case for most of last year’s hurricane-related relief and recovery projects.
Simply put, because grantees no longer are required to share in the cost of these
projects, they have less incentive to control costs.

In addition, post-hurricane staffing for at least one grantee left fewer staff
available to perform oversight. For example, we found that after experiencing
financial difficulties due to the substantial loss of passenger revenue following the
hurricanes, management at New Orleans International Airport cut operations
staffing levels by almost half, from a pre-Katrina level of 222 employees to just
123 employees after the hurricane. Similarly, the airport accounting staff was cut
from 10 to 7, leaving fewer staff to manage FAA Airport Improvement Program
hurricane grant expenditures.

For further information, the following reports can be seen on the OIG web site
at http://www.oig.dot.gov:

 • Federal Aviation Administration Oversight of Airport Improvement Program
   Hurricane Grants
 • Mississippi Department of Transportation’s Award of Selected Hurricane
   Katrina Emergency Repair Contracts
 • Internal Controls Over the Emergency Disaster Relief Transportation Services
   Contract
 • Internal Controls Over Payments for Emergency Disaster Relief
   Transportation Services
 • Management Advisory: Accounting and Financial Reporting of Related
   Hurricane Costs
                                                                                                                  22



4. Strengthening Efforts To Save Lives by Improving
   Surface Safety Programs
The Safe, Accountable, Flexible, and Efficient Transportation Equity Act: A
Legacy for Users (SAFETEA-LU) provided significant enhancements for surface
transportation safety programs. As the Department implements these programs, it
must use the increased resources across all modes in ways that result in safer
surface transportation and more lives saved.

While the highway fatality rate per 100 million vehicle miles traveled has been
reduced by approximately 40 percent in the last 20 years, 2005 marked the first
increase in the highway fatality rate since 1986. The most recent crash data from
the National Highway Traffic Safety Administration (NHTSA) shows that
43,443 people were killed in motor vehicle crashes in 2005 and the crash fatality
rate for 2005 increased to 1.47 from 1.45 in 2004.

The Department of Transportation’s (DOT) ambitious target, set forth in the
September 2003 Strategic Plan, was to reduce the fatality rate to 1.0 by 2008.
However, as shown in Figure 4-1, the actual rates have lagged behind the yearly
targets, and our projection of past trends estimates a 2008 fatality rate of 1.41.
DOT’s latest Strategic Plan for 2006 through 2011, issued in September 2006, sets
transportation safety as the Department’s number one goal and retains the target
rate of 1.0 but extends the time for reaching this goal out to 2011. Meeting the 1.0
target rate, even with this extended timeframe, will require a significant
acceleration in past improvements.

         Figure 4-1: Actual Highway Fatality Rates Lag Targeted Rates*

  Fatality Rate
  2.00
           1.51         1.51          1.48          1.45            1.47        1.44
  1.50                                                                                        1.42       1.41
           1.50          1.40         1.40          1.38            1.38        1.38          1.38
  1.00
                                                                                                         1.00
  0.50                Actual Fatality Rate                   Target Rate                 Projected Rate

  0.00
     2001            2002          2003          2004          2005          2006          2007          2008
                                                        Year

   Source: NHTSA budget information for actual fatality rates and target rates. Projected rates for 2006, 2007,
   and 2008 were calculated using NHTSA’s forecasting methodology.
 * Fatality rates are shown as the number of fatalities per 100 million vehicle-miles traveled.
                                                                                                             23

Despite the overall increase in highway fatalities and the fatality rate in 2005, the
latest data show improvements in a number of areas, including these examples.

 • Alcohol-related traffic fatalities accounted for 16,885 of the 43,443 fatalities in
   2005 (39 percent), the lowest level since 1999.
 • Fatalities in large truck crashes decreased in 2005 to 5,212, after increasing in
   the 2 previous years.
 • The number of young drivers (age 16 to 20) killed declined from 3,538 to
   3,374.
 • Observed seat belt use increased to 82 percent in 2005, compared to 80 percent
   in 2004.

The highway crash data also show specific areas where challenges remain. For
example, motorcycle fatalities increased by 13 percent in 2005, from 4,028 to
4,553. In addition, non-occupant fatalities (including pedestrians) rose by almost
6 percent, from 5,532 to 5,849. The rise in fatalities in these two areas more than
offset an overall decrease in passenger vehicle fatalities.

For rail safety, data from the last decade also show challenges, although the
2005 data registered an improvement. In 2005, train accidents decreased by
6 percent and the rate of train accidents per million train-miles traveled decreased
by 8 percent. However, the overall data for 1995 through 2005 show that train
accidents increased by 29 percent and the rate of train accidents grew by 9 percent
(see Figure 4-2).

        Figure 4-2: Trends in the Number and Rate of Train Accidents
                                                                       Rate of Train Accidents Per Million




                                             5,000              5
                                             4,750              4.75
                 Number of Train Accidents




                                             4,500              4.5
                                                                              Train-Miles Traveled




                                             4,250              4.25
                                             4,000              4
                                             3,750              3.75
                                             3,500              3.5
                                             3,250              3.25
                                             3,000              3
                                             2,750              2.75
                                             2,500              2.5
                                             2,250              2.25
                                             2,000              2
                                                    95

                                                    96

                                                    97

                                                    98

                                                    99

                                                    00

                                                    01

                                                    02

                                                    03

                                                    04

                                                    05
                                                 19

                                                 19

                                                 19

                                                 19

                                                 19

                                                 20

                                                 20

                                                 20

                                                 20

                                                 20

                                                 20




                                                     Year


            Source: Federal Railroad Administration
                                                                                24

The importance of rail safety is illustrated by the tragic consequences that can
occur from just one accident. For example, a 2005 train accident in Graniteville,
South Carolina, which was attributed to human error, caused the train to derail and
a tank car to release a hazardous material. As a result, 9 people were killed and
292 people were injured.

To their credit, NHTSA, the Federal Motor Carrier Safety Administration
(FMCSA), and the Federal Railroad Administration (FRA) have taken action to
address the surface safety challenges discussed in our previous reports. To further
enhance DOT’s surface safety programs for highway and rail travel, we have
identified the following key actions in this year’s report:

 • Promoting improved performance measures and enhanced state accountability
   to maximize efforts to reduce fatalities caused by impaired driving,
 • Building on successful efforts to better enforce motor carrier safety
   regulations,
 • Ensuring the integrity and future modernization of the Commercial Driver’s
   License (CDL) Program, and
 • Enhancing railroad safety through improved oversight of grade-crossing
   reporting and better identification of trends.

Promoting Improved Performance Measures and Enhanced State
Accountability To Maximize Efforts To Reduce Fatalities Caused by
Impaired Driving
NHTSA is the lead Federal agency responsible for reducing alcohol-impaired
driving. In our ongoing audit of alcohol-impaired driving programs, the 10 states
reviewed reported benefits derived from Federal funding. However, NHTSA’s
ability to fully gauge the effectiveness of state programs would be improved if
states had established performance measures designed to assess key strategies,
such as sustained enforcement of alcohol-impaired laws. We are discussing with
management ways to help NHTSA target Federal resources to the program areas
most likely to lead to future reductions in alcohol-impaired traffic fatalities.
Enhanced state accountability will also be promoted if NHTSA continues the
timely implementation of the triennial reviews of highway safety grant programs
that are required by SAFETEA-LU and follows up on recommendations made to
the states in these reviews.

Building on Successful Efforts To Better Enforce Motor Carrier Safety
Regulations
Our 2006 audit found that FMCSA’s implementation of the Motor Carrier Safety
Improvement Act of 1999 had significantly improved oversight of motor carrier
safety. However, the audit found that FMCSA could further strengthen its
                                                                                   25

oversight by imposing maximum fines on truck or bus companies that chronically
violate serious safety regulations. FMCSA did not consistently implement the
law’s sanctions against such repeat violators—only 33 of the 533 repeat violators
we identified received the maximum penalty. In response to the report, FMCSA
committed to strengthening its policy by May 2007 to ensure all violations falling
within the two most serious categories set up by the Agency are appropriately
counted when identifying chronic or repeat violators subject to maximum
penalties.

Our 2006 audit also found that FMCSA and the states have taken and are
continuing to take positive steps to improve the quality of safety-related
performance data, but challenges remain. For example, after FMCSA took action,
the percentage of motor carriers not reporting census data on drivers and trucks
was reduced from 42 percent as of January 2003 to approximately 27 percent as of
January 2005. Data also show improvement in the overall completeness of crash
reporting from the states, although studies done at selected states indicate that
more improvements are needed.

Quality data are needed to properly rank motor carriers’ safety performance,
identify high-risk motor carriers, and target those carriers for compliance reviews
and inspections. Reasonable and workable quality standards must also be
maintained if the data are to be made public. The challenge to obtain higher
quality data will require continued effort from FMCSA and the states to carry out
the initiatives that are underway.

Ensuring the Integrity and Future Modernization of the Commercial
Driver’s License Program
Over the past 5 years and with the support of FMCSA, we have carried out
investigations with other law enforcement agencies that involved CDL fraud
schemes in 24 states. These investigations have led to the prosecution of CDL
fraud schemes in 15 states and have revealed that thousands of CDLs were issued
to drivers who obtained them through corrupt state or state-approved (third-party
examiners) testing processes. Curbing CDL fraud is important to highway safety
and ensures that only drivers with requisite skills, including applicable training for
hazardous material transportation, obtain CDLs.

Our 2006 audit on CDL oversight recognized several positive steps that FMCSA
took to counter CDL fraud. For example, FMCSA instituted a fraud component
within its CDL compliance review program. It also worked with the states and
other organizations to identify fraud vulnerabilities and to develop model law
enforcement programs. In 2007, FMCSA needs to follow through on its
commitment in response to our report, to request that states track the status of
                                                                                26

drivers suspected of fraud, and to continue to demonstrate the high priority it
places on this issue.

FMCSA is also faced with the challenge of modernizing the Commercial Driver’s
License Information System (CDLIS). The CDLIS Modernization Program
should improve the system’s security and effectiveness and prevent further system
degradation as system usage and requirements grow. The modernization efforts
should also address future financing of the system.

Enhancing Railroad Safety Through Improved Oversight of Grade-
Crossing Reporting and Better Identification of Trends
FRA has taken significant steps to reduce collisions and fatalities at highway-rail
grade-crossings, including the establishment of a reconciliation process to ensure
that fatal grade-crossing collisions are promptly reported to the National Response
Center. However, our ongoing audit work shows that railroads are not providing
timely written reports to FRA for all grade-crossing collisions (both fatal and
non-fatal). In some cases, collisions have gone unreported. Without data on all
grade-crossing collisions, FRA’s ability to identify emerging trends and new areas
for further safety improvements is limited.

The identification of trends for the targeting of resources to high-risk areas is
particularly critical, because FRA inspections decreased by 6 percent, from
67,517 in 2003 to 63,264 in 2005. To facilitate the targeting of resources, in
October 2005, FRA began to phase in the implementation of its National
Inspection Plan. The Plan is intended to make better use of data and direct safety
inspectors to high-risk areas. This action will complement the aggressive and
ambitious National Rail Safety Action Plan launched in May 2005. The Action
Plan includes initiatives to reduce train accidents caused by human factors and to
enhance hazardous materials safety and emergency preparedness. Better targeting
of resources may enable FRA to carry out its safety mission more efficiently, but
FRA needs to ensure that its inspection activity remains at the level needed to
adequately oversee the safety of the Nation’s railroads.

For additional information, the following reports and testimonies are available
on the OIG web site at http://www.oig.dot.gov:

 • Reauthorization of TEA-21 Safety Programs
 • Processing Petitions To Import Non-Canadian Gray Market Vehicles
 • Follow-Up Audit on NHTSA’s Office of Defects Investigation
 • Significant Improvement in Motor Carrier Safety Since 1999 Act but Loopholes
   for Repeat Violators Need Closing
 • Federal Motor Carrier Safety Administration Oversight of Commercial
   Driver’s License Program
                                                                     27

• Background Checks for Holders of Commercial Driver’s Licenses With
  Hazardous Materials Endorsements
• Follow-Up Audit of the Implementation of the North American Free Trade
  Agreement’s Cross-Border Trucking Provisions
• Highway-Railroad Grade Crossing Safety Issues
• FRA Safety-Related Findings and Recommendations
• Report on the Audit of the Highway-Rail Grade Crossing Safety Program
• Audit of Oversight of Highway-Rail Grade Crossing Accident Reporting,
  Investigations, and Safety Regulations
                                                                                28




5. Aviation Safety—Performing Oversight That Effectively
   Utilizes Inspection Resources and Maintaining Aviation
   System Safety
Safety is the Federal Aviation Administration’s (FAA) highest priority. For more
than 4 years, FAA and the U.S. aviation industry has experienced one of the safest
periods in history, even though the industry was undergoing dramatic changes.
However, the August 27, 2006, crash of Comair Flight 5191 served as a reminder
that we must continue to do more to make a safe system even safer.

While the Comair accident is the most recent U.S. air carrier accident, other fatal
accidents occurred in the past year as well. In December 2005, a 58-year old
Chalks Ocean Airways seaplane crashed off the coast of Florida when the right
wing separated from the aircraft during flight. During the same month, a
Southwest Airlines aircraft skidded off the runway at Chicago Midway and
collided with an automobile off the airport grounds. Each of these accidents is the
subject of an ongoing National Transportation Safety Board investigation.

Notwithstanding these tragic accidents, the United States has maintained one of
the safest aviation systems in the world. This is a remarkable accomplishment
given the many changes occurring within the industry. For example, network air
carriers continue to work aggressively to move away from high-cost structures by
reducing in-house staff, renegotiating labor agreements, and increasing the use of
external repair facilities. To address these changes, FAA is working to implement
and refine risk-based safety oversight systems.

At the same time, FAA must also remain attentive to other issues that could affect
the safety of the aviation system, such as runway incursions (potential collisions
on the ground) and operational errors (potential collisions in the air). In recent
years, FAA has made progress in reducing the overall number of runway
incursions, but serious incidents (where a collision was barely avoided) continue
to occur. For example, on March 21, 2006, a controller at Chicago O’Hare
mistakenly cleared two commercial aircraft (an Airbus 319 and an Embraer E145)
for takeoff on intersecting runways. Before stopping, the two aircraft came within
100 feet of one another at the runway intersection.

Key challenges for FAA are:

 • Advancing risk-based oversight systems for air carriers and external repair
   facilities,
                                                                                   29

 • Maintaining a sufficient inspector workforce to effectively respond to changes
   in the industry, and
 • Continuing to emphasize and address the risks of runway incursions and
   operational errors.

Advancing Risk-Based Oversight Systems
In the past 8 years, FAA has made important progress in developing risk-based
approaches to safety oversight. As of October 13, 2006, there are 39 air carriers
under FAA’s Air Transportation Oversight System—a system that permits
inspectors to use maintenance and operations data to focus their oversight on areas
of higher risk. In addition, FAA has developed a risk-based oversight system for
aircraft repair facilities. However, FAA continues to face challenges in advancing
both these efforts. Also, FAA needs to gather more information about the type of
work repair facilities not certificated by FAA perform and determine what range
of actions are required to improve oversight of these facilities.

Risk-Based Oversight System for Air Carriers. FAA has made significant progress
in implementing its risk-based oversight approach for air carriers; however, FAA
is still refining the system and working to implement it at the remaining 85 air
carriers. In 2005, we reported that the system was not mature enough to permit
inspectors to effectively respond to the rapid changes occurring in the industry.
Further, when the 2005 mechanics’ strike occurred at Northwest Airlines, FAA
abandoned the system in favor of a more simplified approach to oversight that was
much like the process used under the old inspection system.

In response to our 2005 report, FAA developed guidance to help inspectors more
thoroughly address industry changes, such as financial distress and growth, when
assessing safety risks. FAA also revised guidance to ensure inspectors are
continually monitoring the effects of air carrier changes, rather than waiting for a
major event such as an air carrier declaring bankruptcy. In addition, FAA has now
developed a schedule and plans to complete transition of all air carriers to its risk-
based oversight system by the end of calendar year 2007. For this effort to be
successful, FAA must ensure its inspectors are well trained and located in areas of
greater need.

Oversight Systems for External Repair Facilities. As air carriers worked to reduce
costs, use of external maintenance facilities dramatically increased. Air carriers
that had traditionally performed all their maintenance in-house began to use
domestic and foreign repair facilities to do this work. For example, in
March 2005, Delta Air Lines announced that it would substantially reduce its
in-house mechanics’ staff and use external facilities to perform most of its heavy
airframe maintenance. From 1996 to 2005, air carriers’ use of external repair
                                                                                  30

facilities has grown from 37 percent of air carriers’ maintenance costs to
62 percent.

Recognizing that its inspector workforce cannot provide continuous oversight of
every maintenance facility and in response to recommendations in our July 2003
report, FAA has now developed a risk-based oversight approach to FAA-
certificated repair stations. However, at the time of our review, the system has not
been fully implemented; rather, inspectors had the option of using a manual
system for assessing potential safety risks at repair stations. According to FAA,
the more effective automated system was implemented on October 1, 2006. As
with its air carrier oversight system, FAA must ensure its inspectors are well
trained on the new system for this effort to be successful.

FAA also needs to develop a more effective oversight process for work performed
at non-FAA-certificated repair facilities. In December 2005, we reported that air
carriers are now using these facilities to perform critical and scheduled
maintenance work. We identified 6 domestic and foreign facilities that performed
scheduled maintenance and 21 that performed maintenance that is key to the
airworthiness of the aircraft. FAA oversight of the work performed at these
facilities is important because there are significant differences in regulatory
requirements for operation of the facilities and the amount of training the
mechanics at non-certificated repair facilities receive. For example, non-
certificated repair facilities are not required to have a quality control system,
designated supervisors and inspectors, or a training program.

We recommended that FAA inventory air carrier maintenance providers and
identify which non-certificated facilities perform critical maintenance functions
and scheduled maintenance and, based on the results of this inventory, make a
determination as to whether it should limit the type of work non-certificated
facilities can perform. Also, we recommended that FAA evaluate air carrier
training and oversight programs for work performed at non-certificated facilities.
FAA committed to implement all our report recommendations and needs to follow
through on its commitment.

Maintaining a Sufficient Inspector Workforce
Much attention has been paid to controller staffing—FAA plans to hire over
11,000 controllers in the next 10 years. While replacing retiring controllers is a
critical issue for FAA, it is also important to maintain a safety inspector workforce
sufficient to achieve the Agency’s mission of safety oversight.

FAA’s fiscal year (FY) 2007 budget request calls for an increase of 116 safety
inspectors. However, it is unlikely that staffing gains over the next few years will
be enough to offset the number of safety inspectors eligible to retire during the
same time period. For example, this year, 28 percent of the current inspector
                                                                                                                                         31

workforce (1,008 of 3,628) will be eligible to retire. By 2010, half of the current
safety inspector workforce (1,820 of 3,628) will be eligible to retire. Just as FAA
has recognized the need to address an expected surge in controller attrition, it must
also ensure it closely monitors retirements and takes steps to hire and train the next
generation of safety inspectors. FAA will need to carefully evaluate its inspector
staffing levels to ensure it can sustain sufficient oversight in light of the potential
attrition within that workforce.

Reducing the Risk of Accidents on the Ground and in the Air
Two primary indicators of system safety are runway incursions and operational
errors. Reducing these incidents are key performance goals for FAA that require
heightened attention at all levels of the Agency.

From 1998 to 2001, we reported that runway incursions were increasing at
alarming rates. To its credit, FAA took decisive action—it established regional
runway safety offices, conducted numerous safety evaluations at problem airports,
initiated aggressive educational programs for pilots, and implemented
technologies at major airports that alert controllers of potential runway accidents.
As shown in Figures 5-1 and 5-2, the total number of runway incursions decreased
from a high of 407 in FY 2001 to 327 in FY 2005, and the most serious incidents
have decreased from a high of 69 in FY 1999 to 29 in FY 2005.


            Figure 5-1. Runway Incursions                               Figure 5-2. Serious Runway Incursions
                 FY 1999 to FY 2005                                               FY 1999 to FY 2005

      F Y 19 9 9                                  329                  F Y 19 9 9                                               69

      F Y 2000                                           405           F Y 2000                                                67

      F Y 2001                                           407           F Y 2001                                          53

      F Y 2002                                     339                 F Y 2002                                37

      F Y 2003                                    323                  F Y 2003                            32

      F Y 2004                                    326                  F Y 2004                        28

      F Y 2005                                    327                  F Y 2005                           29

    * F Y 2006                                    305                * F Y 2006                        27

                   0     10 0     200       300     400        500                  0             25                50              75


       * P reliminary data fo r 11mo nths     So urce: FA A          * P reliminary data fo r 11mo nths             So urce: FA A




However, since 2003, the number of runway incursions has leveled off, and very
serious runway incursions (those in which a collision was barely avoided)
continue to occur. Recent incidents at several large airports highlight the potential
safety risks associated with runway incursions. During the period FY 2005
through August 2006, Boston Logan, Chicago O’Hare, and Philadelphia
International all experienced increases in runway incursions. Boston Logan had
                                                                                 32

22 incidents (1 severe), Chicago O’Hare had 15 incidents (5 severe), and
Philadelphia had 15 incidents (1 severe involving a collision). Those were the
highest number of runway incursions among the Nation’s large commercial
airports. FAA needs to remain committed to its efforts addressing these
significant safety risks.

While FAA has seen a reduction in the number of runway incursions nationwide,
it has not had the same success with operational errors—where aircraft come too
close together in the air. Not only are these incidents continuing to increase, but
shortcomings in FAA’s reporting system for operational errors have indicated that
the true number of these incidents is not yet known.

For example, in FY 2005, there were 1,489 operational errors (up from 1,149 in
FY 2004), which is the highest number of errors reported in the past 6 years.
Seventy-three of those errors were classified as serious incidents (those rated as
“high” severity), compared to 40 serious incidents reported in FY 2004.

While the increases in operational errors are significant, it is important to
recognize that the number of errors reported in prior years may not be an accurate
benchmark. This is because at the majority of FAA facilities, FAA relies on an
inaccurate system of self-reporting operational errors. In September 2004, we
reported that only 20 of FAA’s 524 air traffic control facilities have an automated
system that identifies when operational errors occur. At its towers and terminal
radar approach control (TRACON) facilities, FAA depends on an unreliable
system of self-reporting operational errors.

This past year, FAA has taken steps to improve operational error reporting. For
example, FAA implemented procedures that require towers and TRACONs to
conduct random audits of radar data to identify potential unreported operational
errors. FAA Headquarters is also conducting random audits at selected facilities
and is evaluating its severity rating system in an effort to more accurately capture
the collision risk that operational errors pose. More importantly, FAA is
developing an automated system to identify when operational errors occur at
TRACON facilities. FAA plans to start fielding this system in FY 2008 with an
estimated completion date in FY 2009.

Clearly, these actions are steps in the right direction. FAA will need to remain
committed to following through on those efforts and identify an accurate baseline
of the number of operational errors that are actually occurring.
                                                                          33

For further information, the following reports and testimonies can be seen on
the OIG web site at http://www.oig.dot.gov:

 • Safety Oversight of an Air Carrier Industry in Transition
 • Letter to Representative Oberstar Regarding FAA Actions on Air Carriers’
   Use of Aircraft Repair Stations
 • Controls Over the Reporting of Operational Errors
 • Alleged Cover-Up of Operational Errors at DFW TRACON
 • Review of Air Carriers’ Use of Non-Certificated Repair Facilities
 • Letter to Representative Oberstar Regarding FAA’s Aging Airplane Safety
   Rule
                                                                                34


6. Making the Most of the Federal Resources That
   Sustain Surface Transportation Infrastructure
   Improvements by Continuing To Emphasize Project
   Oversight
At a time when transportation infrastructure needs are increasing faster than the
financial resources available to fund them, stewardship of taxpayer dollars
continues to be a priority for the Department of Transportation. During fiscal year
2006, both the Federal Highway Administration (FHWA) and Federal Transit
Administration (FTA) took positive actions to increase their oversight of grant
funds. For example, FHWA continued to strengthen its oversight of inactive
obligations by deobligating $738 million in unneeded funds for highway projects.
Joint work by FHWA and the Office of Inspector General resulted in one firm
agreeing to a $3 million civil settlement involving the inappropriate use of
Disadvantaged Business Enterprises on 38 different federally funded highway
projects. In addition, FTA continues to use its special office in New York City to
oversee $4.4 billion in high-priority transit projects being built in Lower
Manhattan in response to the September 11, 2001, terrorist attacks.

FHWA’s and FTA’s actions are steps in the right direction, but more needs to be
done to sustain and build on these oversight improvements. This is a significant
challenge, given the annual budgets of both Operating Administrations: FHWA’s
of about $40 billion and FTA’s of about $9 billion.

We see three key issues that need continued management emphasis.

 • FHWA must ensure that initiatives to strengthen its oversight of Federal
   highway funds are implemented effectively so that major projects are delivered
   on time, within budget, and free from fraud.

 • FHWA’s oversight must include actions to ensure that highway tunnels are
   safe for the driving public.

 • FTA must continue to exercise vigilant oversight to ensure that large and
   complex transit infrastructure projects are completed on time and within
   budget.

Initiatives To Improve the Oversight of Highway Funds Need To Be
Implemented Effectively To Ensure That Projects Are Completed on Time,
Within Budget, and Free From Fraud
In 2006, FHWA implemented several initiatives to strengthen its oversight—
testing whether Federal highway payments to states were eligible for
                                                                                                          35

reimbursements, issuing new regulations to help states monitor obligated Federal
highway funds, and dedicating staff in its Division Offices to oversee active major
projects. Although we foresee positive outcomes to these initiatives, FHWA must
take additional steps to ensure that large, complex construction projects are
delivered on time, within budget, and free from fraud.

Specifically, FHWA needs to:

    • Strengthen financial and cost controls for Federal highway funds to better
      detect improper payments to states. FHWA’s implementation of its
      Financial Integrity Review and Evaluation (FIRE) Program will help to
      improve controls and safeguard highway funds. The FIRE Program is the
      cornerstone of FHWA’s plan to improve oversight by supporting the annual
      certification of internal and financial controls over the Highway Trust Fund
      financial statements. The program also includes a risk assessment of the grant
      financial management process and statistical reviews of Federal-aid billing
      transactions to determine whether costs submitted to FHWA by state
      transportation departments are eligible for reimbursements. Establishment of
      the FIRE Program is a significant step. FHWA must ensure that the program
      is implemented effectively in each of its 52 Division Offices.

      In addition, FHWA Divisions need to do more to ensure that states have better
      financial management practices for identifying and recovering improper
      payments, particularly on state contracts awarded with Federal-Aid Highway
      funds. FHWA also needs to refine its testing techniques for identifying
      improper payments. For example, in August 2006, FHWA recovered
      $20 million from the Tennessee Department of Transportation for the Memphis
      Intermodal Transportation Project because Federal highway funds approved for
      this project were inappropriately used to build a parking garage adjacent to a
      national sports arena. While FHWA’s actions in recovering these funds were
      effective, stronger oversight by FHWA is needed to help avoid such improper
      payments in the first place.

    • Ensure that cost estimates and schedule milestones for major projects are
      realistic, reasonable, and credible and that potential risks are thoroughly
      considered. FHWA can build on its existing practices by increasing its
      oversight and providing greater financial and technical expertise to help states
      address funding shortages, cost increases, schedule delays, and construction
      quality issues. FHWA oversees 117 major highway projects 6 estimated to cost
      $192 billion ($63 billion for 37 active projects and $129 billion for 80 projects
      currently in the pipeline).

6
    The Safe, Accountable, Flexible, and Efficient Transportation Equity Act: A Legacy for Users defines major
    highway construction projects as those that are estimated to cost $500 million or more.
                                                                                 36

   Of the 12 major highway projects we are monitoring, two-thirds have
   experienced moderate to significant increases in their cost estimates. We
   found that states’ cost estimates have frequently excluded or understated
   known elements of cost growth that were needed to complete projects.
   Further, some major highway projects have fallen months or years behind
   schedule, which has led to rising project costs. To ensure that states prepare
   reliable estimates of the cost to complete major projects, FHWA needs to
   routinely validate the reliability of estimated costs.

   As a result of Hurricane Katrina destroying three major bridges, the value of
   Federal-aid highway programs in both Louisiana and Mississippi more than
   doubled. FHWA mobilized very quickly to respond to the catastrophic
   conditions and took the initiative to evaluate costs and to question
   unreasonable emergency repair contract charges.           However, FHWA’s
   continued oversight will be important to ensure that, in addition to other
   highway projects, those three critical bridge replacement projects are
   completed on time, within budget, and able to withstand future hurricanes.

 • Ensure that special oversight managers are properly trained to identify
   risks. Several provisions under the Safe, Accountable, Flexible, and Efficient
   Transportation Equity Act: A Legacy for Users (SAFETEA-LU) promote
   stronger oversight of Federal-aid funds by: (1) lowering the major project
   threshold from $1 billion to $500 million and (2) requiring states to submit
   project management plans and annual financial plans to FHWA for each major
   project. According to FHWA, the lower monetary threshold is expected to
   more than double the number of active and future major projects that will
   require FHWA’s oversight. To meet the challenge of providing primary
   Federal oversight of active major highway construction projects, FHWA
   assigned project oversight managers to its Division Offices. These managers
   are responsible for identifying cost growth, schedule delays, funding shortages,
   and other critical risks on active major highway projects. FHWA needs to
   ensure that they are trained in identifying critical risks and taking appropriate
   corrective actions.

FHWA’s Oversight Must Include Actions To Ensure That Highway
Tunnels Are Safe for the Driving Public
During the past 2 years, serious failures in construction quality on the Central
Artery/Tunnel Project have highlighted the need for FHWA to take additional
steps to ensure the safety of the Nation’s highway infrastructure. Effective quality
control and vigilant oversight are key components throughout the construction
process to ensure the safety of the driving public. The Project’s complex network
of tunnels and bridges has a history of schedule delays and construction problems,
including water leaks and the July 10, 2006, ceiling collapse that killed an
                                                                                                                  37

automobile passenger and led to widespread tunnel closures. To address these
problems, FHWA is providing technical assistance to the National Transportation
Safety Board in its investigation and to Massachusetts to support the reopening of
closed tunnels, conducting an independent review of the ceiling failure, and
advising the Governor’s office on a “Stem-to-Stern Safety Review.” 7 The
magnitude of this oversight effort, as well as the intense public concern for the
safety of this massive project, presents a significant challenge to FHWA and the
Department beyond their normal oversight roles. FHWA’s actions will be critical
in 2007 to restore confidence that the Project is safe.

The safety problems that surfaced in the Central/Artery Tunnel Project also call
into question the oversight and quality control processes for constructing and
maintaining highway tunnels. In light of the known problems of the Central
Artery tunnels, FHWA should develop and implement a system to ensure that
states inspect and periodically report on the condition of the Nation’s tunnels.
FHWA should begin by promptly determining whether a rulemaking or additional
legislative authority is necessary for this action.

FTA Must Continue To Exercise Vigilant Oversight To Ensure Large and
Complex Transit Infrastructure Projects Are Completed On Time and
Within Budget
FTA has an established program for oversight of its transit infrastructure projects,
including the hiring of outside project and financial management oversight
consultants. FTA uses a risk-based approach for the oversight of its Federal
projects—a best practice. In addition, it has recently taken the initiative to fine-
tune its risk-based assessments of transit projects and has hired an external
consulting firm to evaluate this approach. FTA’s initiatives have generally
improved oversight for its projects; however, numerous large and complex transit
projects; especially those in New York City and the Washington, DC,
metropolitan area; will present new oversight challenges.

On July 13, 2006, we testified to Congress that effective day-to-day oversight of
these large and complex transportation projects is critical and that FTA should use
all of its oversight tools effectively. For example, FTA’s project management
oversight contractors are charged with regularly monitoring each project and
providing feedback to Federal officials should any problems arise. The oversight
contractors hired for each project are charged with conducting risk assessments,
reviewing costs and schedules regularly, and assessing each grantee’s plans for the
project. The key points are that FTA must ensure that it fully analyzes the results

7
    The goal of the Stem-to-Stern Safety Review, performed by a major forensic engineering firm under a contract with
    the Commonwealth of Massachusetts, is to conduct an independent review of the infrastructure within the
    Metropolitan Highway System tunnels and facilities and to provide a complete assessment of the near- and long-term
    safety of the system.
                                                                                 38

of the contractors’ reports; takes actions, where appropriate; and exercises its own
oversight role in addition to the contractors’ work.

Vigilant oversight will be particularly important because FTA must continue to
oversee a number of transit infrastructure projects throughout the Nation, while at
the same time overseeing several large and complex initiatives collectively costing
about $19 billion. The initiatives are the Lower Manhattan Recovery Projects
(four FTA projects and one FHWA project with a Federal commitment of
$4.4 billion), the New York/Second Avenue Subway Minimum Operable Segment
(estimated to cost $4.7 billion), the Long Island Rail Road East Side Access
(estimated to cost $7.3 billion), and the Dulles Corridor Metrorail Project
(estimated to cost $2 billion).

The projects in New York City and the concurrent construction activity there can
be expected to create significant competition for materials and labor. As
demonstrated in our September 2006 report on selected Hurricane Katrina
contracts that were awarded in Mississippi, increased competition for materials
and labor, among other things, resulted in much higher prices for emergency
repairs of highways and bridges. FTA will need the right mix of oversight
resources to effectively manage costs, schedules, and quality issues during the
construction of each of these large infrastructure projects.

For further information, the following reports and testimonies can be seen on
the OIG web site at http://www.oig.dot.gov:

 • Testimony on Impact of Water Leaks on the Central Artery/Tunnel Project and
   Remaining Risks
 • Audit of Federal Highway Administration’s Inactive Obligations
 • Audit of Oversight of Load Ratings and Postings on Structurally Deficient
   Bridges on the National Highway System
 • Testimony on Lower Manhattan Reconstruction: Lessons Learned From Large
   Transportation Projects
 • Audit of the Mississippi Department of Transportation’s Award of Selected
   Hurricane Katrina Emergency Repair Contracts
                                                                                  39



7. Achieving Reform of Intercity Passenger Rail
Intercity passenger rail service is an important component of a balanced
transportation system. However, as we stated last year, the current model for
providing this service remains broken. Amtrak continues to incur unsustainably
large operating losses, provide poor on-time performance, and require increasing
levels of infrastructure and fleet investment. Amtrak projects a $1.2 billion
operating loss in fiscal year (FY) 2006, the fifth consecutive year of operating
losses in excess of $1 billion. Adding to its fiscal troubles, Amtrak’s flagship
service, Acela, is underperforming financially. Meanwhile, Amtrak’s overall on-
time performance worsened this past year. In July, overall on-time performance
fell to 67.7 percent—2.4 percent below July FY 2005 year-to-date levels.

A year ago, we indicated that the Department must work with Congress and other
stakeholders to break the cycle of appropriations without authorization for Amtrak
and to realign the size, operations, and governance of the intercity passenger rail
system to match the levels and sources of funding available. In the past year,
modest progress was made on our recommendation regarding reducing Amtrak’s
costs. Still outstanding is our recommendation regarding mechanisms giving
states a larger voice in determining service requirements and establishing adequate
and stable Federal funding.

Critical questions remain regarding where intercity passenger rail makes sense,
what types of service should be provided, how much it should cost, and who
should pay for it. Reform should focus on reducing costs while improving
mobility in corridors (routes of less than 500 miles) around the country—not just
in the Northeast Corridor—and in restructuring long-distance service (routes of
greater than 500 miles) to complement corridor services. In the meantime, the
Department should use its broad authority, through the grant approval process, to
secure improvements in Amtrak’s operating efficiency.

Additional effort is needed in the following areas to create a new model for
passenger rail transportation.

Amtrak Must Do More To Improve Cost-Effectiveness, Operate
Efficiently, and Improve Performance
Amtrak has an obligation to be a prudent steward of the taxpayer support it
receives and operate cost effectively; yet it has few, if any, internal incentives to
do so. Its operations are neither disciplined by competition since it is the sole
provider of intercity passenger rail service nor by the marketplace since it has
access to the Federal treasury. As a result, until recently, there has been little
                                                                                40

implementation of reforms to improve the cost-effectiveness of Amtrak’s
operations.

This past year, Congress directed Amtrak to operate more cost effectively by
achieving savings from operational reforms. Our office was required to report on
and certify Amtrak’s achievement of operational reform savings.              This
requirement—in conjunction with constrained appropriations, the Department’s
grant application review process, and the Amtrak Reform Board’s strategic reform
initiatives—has resulted in modest savings from the first stages of a limited
number of operational reform initiatives. Much more needs to be done. In
addition, the Department must work to institutionalize incentives for Amtrak to
control costs that will ensure taxpayers receive the maximum level of intercity
passenger rail service in exchange for their subsidies.

We have reported quarterly on the 15 areas targeted to operational reform that
Amtrak identified to reduce long-term operating costs. We found that only a few,
primarily those targeting food and beverage and overhead functions, have resulted
in any savings so far (Amtrak saved $46.3 million through May of this fiscal year,
of which only $3.8 million was from FY 2006 reform initiatives). Amtrak expects
to implement an expanded list of reforms in FY 2007.

As we indicated in our quarterly reports, to operate efficiently and achieve
significant reductions in its Federal operating subsidies, Amtrak must address the
cost of state-supported services, route restructuring, and its labor costs. We have
also reported that Amtrak’s losses on its food and beverage and sleeper service
remain unacceptably high. Although it has begun to reform its food service, we
have yet to see a plan that would result in Amtrak breaking even in this area.
Additionally, while some sleeper service reform has begun, Amtrak needs to do
more to achieve its goal of breaking even in this area as quickly as possible.

Many of Amtrak’s reform efforts will take several years of sustained commitment
to implement fully. Also, for many reforms, the difficult work has not yet begun.
In light of the considerable time and effort required for Amtrak to achieve
meaningful operational reforms, the Department will be challenged to ensure that
the proper external incentives are brought to bear on Amtrak to see this effort
though to fruition.

Amtrak Needs a New Model for Providing Passenger Rail Transportation
The Department and Amtrak need to give states more say in selecting the best mix
of service for their constituents and provide the infrastructure funding needed for
passenger rail to operate as an effective alternative mode of transportation.

States should decide which cities are served, schedules, frequency of service, and
what amenities should be provided. Those decisions are made by Amtrak, unlike
                                                                                   41

other transportation programs (including highways, transit, and airports) in which
similar key decisions are made by state or local governments. As a result, these
service decisions do not always reflect the states’ preferences and priorities.
Intercity passenger rail would be better served with state-led initiatives as to where
and how intercity passenger rail service is developed. State sponsorship will
become increasingly important because the states should also be asked to provide
increased operating and investment support. Capital funding decisions, as with
mass transit, should ultimately reside with the Department, based on congressional
direction and in partnership with the states.

No corridor around the country, including the Northeast Corridor, can provide the
type of mobility needed without significant up-front investment. In the Northeast
Corridor, this means bringing the existing facilities to a state of good repair. In
other corridors around the country, it means creating the infrastructure for
high-frequency services in partnership with freight railroads and commuter
authorities.

A robust Federal program of capital matching grants will be essential if these
corridors are to be developed. In addition, long-distance services that provide
connections between corridors require recapitalization if they are to be run
efficiently and are to provide the high-quality services their passengers deserve.
None of this, however, implies giving more money directly to Amtrak, especially
under the current model.

Introducing competition into the intercity passenger rail system by authorizing
multiple passenger rail service providers is one way to encourage efficiency and
innovation. But competition is not likely to occur unless and until the rail system
is restored to a state of good repair. The first steps that must be achieved are to
ensure adequate Federal and state funds are available for infrastructure repair;
make significant reductions to operating costs; and give states more power to
select routes, schedules, frequencies, and amenities.

For further information, the following reports and testimonies can be seen on
the OIG web site at http://www.oig.dot.gov:

 • FY 2006 First, Second, and Third Quarterly Reports on Amtrak’s Financial
   Status
 • Intercity Passenger Rail and Amtrak
 • Reauthorization of Intercity Passenger Rail and Amtrak
 • Analysis of Cost Savings on Amtrak’s Long-Distance Services
 • Assessment of Amtrak’s 2003 and 2004 Financial Performance and
   Requirements
                                                                                  42



8. Improving Acquisition and Contract Management
     To Reduce Costs and Eliminate Improper Payments
Over the past several years, the Department has shown its ability to strengthen its
oversight practices in the area of grant oversight and financial management when
it focuses its attention on the issue. For example, the Department made significant
progress strengthening its oversight of Federal-aid highway grants since we
highlighted the issue as a management challenge in 2004. As we report in a
separate section of this document, Federal Highway Administration (FHWA)
division officials worked aggressively with states this year to review the need for
inactive funds on transportation projects. As a result, $738 million of idle Federal-
aid funds were made available for use on active transportation projects. The
Department, which requested about $8.7 billion for acquiring goods and services
in its fiscal year (FY) 2007 budget, should now apply the same degree of
dedication and initiative toward strengthening its procurement and acquisition
processes.

Providing increased attention to ensure that procurement and acquisition activities
are conducted in an efficient and effective manner and that taxpayer dollars are
protected from fraud and abuse is a Government-wide priority. Congress enacted
the Services Acquisition Reform Act of 2003, which established Chief Acquisition
Officers at Federal agencies with the intention of strengthening oversight of the
acquisition life-cycle. More recently, in October 2006, the Deputy Attorney
General formed a nationwide procurement fraud task force to focus law
enforcement resources, including our office and other Inspectors General on this
issue. For our part, we have also focused significantly more audit and
investigative resources on procurement and acquisition issues, including the
establishment of a new senior executive position and the hiring of additional staff
to carry out a robust audit program for contracting and procurement activities in
the Department.

In recent years, we identified incidents of fraud, waste, and abuse on Department
of Transportation (DOT) contracts and research agreements. When these incidents
were brought to management’s attention, DOT and its agencies took swift action
to correct the problem or limit its impact. For example, upon notifying the Federal
Aviation Administration (FAA) of wasteful contract management practices
affecting a $500 million multiple-award program to acquire support services, the
FAA Administrator immediately acted on our recommendations and issued a
directive requiring actions to enhance competitive practices, strengthen reviews
over payments, and add integrity training.
                                                                                 43

While DOT agencies are cooperating on eliminating problems as they arise and
implementing actions to improve its stewardship and oversight processes, as
illustrated by FAA’s actions, DOT must be more proactive to further enhance its
vigilance and oversight in this area.

We have identified several contracting issues that require the Department’s
focused attention:

 • Institutionalizing the use of Defense Contract Audit Agency contract audit
   services,

 • Strengthening financial management oversight of institutions performing
   research under DOT cooperative agreements and grants,

 • Promoting more vigilance and enhanced oversight of FAA’s acquisition and
   contract management practices,

 • Ensuring that Department employees maintain high ethical standards, and

 • Enforcing suspensions and debarments more rigorously.

Institutionalizing the Use of Defense Contract Audit Agency Contract
Audit Services
Contract audit services provided by Defense Contract Audit Agency (DCAA) are
a valuable tool for assisting contracting officers in combating excessive prices and
unallowable charges. Additionally, monetary benefits from DCAA audits not only
cover audit costs but can also reduce program costs. For example, from FY 2001
through FY 2005, DOT agencies saved $8 for every $1 spent on a DCAA contract
audit.

The Department is doing more to obtain these needed audits. For example, DOT’s
Office of the Senior Procurement Executive has been working with DCAA,
Operating Administrations, and the Office of Inspector General to find better
methods for obtaining needed audits.           Additionally, responding to our
recommendation, FAA revised its guidance to require that all cost-reimbursable
contracts over $100 million and 15 percent of those contracts under $100 million
obtain post-award audits of allowable costs incurred. Also, FAA’s acquisition
baselines for major programs are now required to set aside funding for audits,
including pre-award audits of prices for new contracts. At other DOT agencies,
incurred-cost audits are now required, unless sufficient justification is documented
for not obtaining them.

However, these policy enhancements need to be implemented more effectively
throughout the Department. Recent Office of Inspector General audits covering
                                                                                 44

all DOT agencies identified that many program offices are not setting aside
funding for audits and some procurement officials are unaware of or lack details
on implementing the audit policies. For example, a recent audit of the use of
contract audit services at DOT agencies other than FAA—covering
30 cost-reimbursable contracts valued at $618 million—disclosed that DOT
contracting officers did not obtain any annual incurred-cost audits for 18 of the
30 contracts (60 percent).

Strengthening Financial Management Oversight of Institutions
Performing Research Under DOT Cooperative Agreements and Grants
The Department uses cooperative agreements and grants to partner with
universities to acquire transportation-related research services. According to DOT
senior acquisition officials, DOT agencies in FY 2005 awarded agreements valued
at over $200 million to colleges, research centers, and other similar recipients. In
contrast with contract and grants awards, cooperative agreements require more
collaboration between Federal agencies and awardees.

In recent audits and investigations, we found recipients and DOT agencies lacked
sufficient guidance and procedures to administer and oversee the agreements.
Examples include:

 • An audit of cooperative agreements awarded to a major university, which
   performs research on crash simulations, concluded that the university billed
   FHWA for “inflated or fictitious” charges. We found a serious lack of
   oversight and internal controls, and the university agreed to reimburse the
   Government more than $1.8 million for the full amount of overcharges plus
   penalties. The responsible professor has been imprisoned for embezzlement.

 • The Research and Innovative Technology Administration’s management and
   oversight of an assistance award to a major university was inadequate, and, as
   a result, about $3.5 million in ineligible costs were allowed as matching funds.
   The university claimed a building as its matching funds, but our investigation
   determined that no transportation education, research, or technology transfer
   occurred at the building.

 • A non-profit research entity billed a Federal Transit Administration
   cooperative agreement for over $400,000 in unallowable charges and failed to
   apply its share of matching funds to liquidate expenditures under the grant.
   This matter is currently under investigation by the Office of Inspector General.

In response to recent audits and investigations, FHWA established a new division
responsible for administering cooperative agreements. The new division is
developing detailed guidance for administration and oversight of grants and
cooperative agreements. FHWA needs to follow through to ensure that it provides
                                                                                  45

adequate oversight of cooperative agreements, and other Operating
Administrations need to similarly strengthen their oversight of cooperative
agreements.

Promoting More Vigilance and Enhanced Oversight of FAA’s Acquisition
and Contract Management Practices
FAA faces challenges for each phase of the acquisition cycle, including planning,
awarding, and administering contracts.          Our audit of a multiple-award
procurement program valued at over $500 million found particular problems with
the program structure. Unlike other support services programs, such as those
offered by the General Services Administration, FAA did not establish common
labor categories and qualifications or leverage the Government’s buying power by
pre-competing labor rates. Instead, FAA defined and negotiated labor rates
separately for each contract and overpaid for services under the program.
Likewise, competitive practices were not used for most individual contract awards.

We identified weaknesses in FAA’s methods of pricing and awarding new
contracts for support services. FAA contracting officers did not adequately
conduct or document price analyses. Although over 76 percent of 114 support
services awarded under the program lacked sufficient competition, price analyses
were not adequately supported. We estimated that FAA would be paying
$24 million to $44 million more if all option years under existing support services
contracts were exercised. Also, problems in contract administration, the last phase
of an acquisition, were identified in our review of 11 support services contracts.
In one case, performance problems were not addressed, and the contractor was
being reimbursed for work performed beyond the statement of work. FAA
followed our recommendations throughout the audit; most significantly, FAA
dissolved the program and is obtaining these services using competitive
procurements. Further, FAA’s Administrator issued a directive to require that any
new award over $1 million with fewer than three competitive bids not be awarded
without the review and approval of the FAA Deputy Administrator.

Our work on DOT’s emergency transportation contact administered by FAA also
identified problems with price analyses. In the aftermath of Hurricane Katrina, the
immediate transportation of people and vital supplies to and from hurricane-
affected areas was critical. FAA contracting officials immediately modified the
contract to ensure the availability of emergency services. Due to rushed
conditions, however, sufficient steps were not taken to ensure that the services
were reasonably priced. For example, one contracting officer awarded a
modification that doubled the maximum contract value for additional services for
Hurricane Katrina without obtaining a price proposal or negotiating reductions to
fixed indirect rates. Although an emergency existed, the contracting officer is still
responsible for ensuring that pricing factors are reasonable. Due to the
                                                                                  46

emergency, the modification could have been awarded subject to a later review of
pricing factors. FAA needs to continue strengthening its oversight of acquisitions
to ensure that procurement and contracting officials implement the Agency’s
Acquisition Management System regulations and guidance.

Ensuring That Department Employees Maintain High Ethical Standards
DOT, like other Federal agencies, is vulnerable to contract and grant fraud
stemming from ethical lapses on the part of employees involved in awarding or
administering procurements. Employees involved in the acquisition of support
services are particularly susceptible. For example:

 • At one Operating Administration, a program manager (who is no longer with
   the Department) received a $120,000 kickback from a contractor who was
   awarded about $3.5 million in purchase orders for information technology
   services.

 • At another Operating Administration, a senior executive attended social
   functions paid for by a contractor (the executive’s previous employer) and
   exerted perceived pressure on subordinates to award over $1.1 million in
   contract task orders to this contractor for a strategic plan and marketing-related
   services.

 • At a third Operating Administration, a program manager steered a
   $465,000 subcontract for financial analysis-related services to a firm owned
   and controlled by a household member.

 • In a departmental office, a senior manager (who is no longer with the
   Department) awarded multiple sole-source contracts and cooperative
   agreements for support services, including advertising and logistics, to an
   individual with whom the director socialized.

In many cases, officials failed to maintain an appropriate “arms-length”
relationship with contractors and cooperative agreement recipients, resulting in
significant administrative and, sometimes, criminal consequences for both
employees and contractors. In some instances, employees simply did not
recognize in advance that their actions could violate ethical standards or create, at
a minimum, the appearance of ethical impropriety.

DOT needs to continually promote and reinforce ethical standards—in particular,
the critical importance of avoiding conflicts of interest in contracting—through
rigorous ethics awareness and training programs. Moreover, while DOT has taken
some steps to strengthen controls, such as those governing cooperative agreements
for the Office of the Secretary, it needs to remain vigilant to strengthen internal
                                                                                 47

controls to prevent and detect inappropriate conduct involving procurements and
take action when violations occur.

Enforcing Suspensions and Debarments More Rigorously
The Department has also strengthened its procedures to ban companies and
individuals that defraud the Government. Most notably, DOT has taken firm
action to enhance its suspension and debarment actions when fraud is identified.
DOT promulgated a new, more rigorous Suspension and Debarment Order in June
2005, which increased accountability and has resulted in an increase in the number
of indicted or convicted parties referred to Operating Administrations for
suspension and debarment actions. However, more work is needed to implement
the policy, specifically in ensuring timelier processing and reporting of suspension
and debarment actions. A centralized database is also needed, and agencies need
to share best practices to identify effective procedures for implementing the
policy.

For further information, the following reports and testimonies can be seen on
the OIG web site at http://www.oig.dot.gov:

 • Financial Policies and Procedures at the George Washington University
   National Crash Analysis Center
 • Audit of the Federal Aviation Administration’s RESULTS National Contracting
   Service
                                                                                 48



9. Protecting, Monitoring, and Streamlining
   Information Technology Resources
The Department of Transportation’s (DOT) information technology (IT)
investment portfolio, with more than 400 computer systems supporting key
mission areas at a cost of about $2.5 billion annually, is one of the largest among
civilian agencies. Over 80 percent of these investments are in air traffic control
modernization. During fiscal year (FY) 2006, the Department made noticeable
improvements in tracking, prioritizing, and correcting security weaknesses—a
major concern identified last year. The departmental Investment Review Board
also provided close oversight to a multibillion-dollar IT investment project
managed by the Federal Aviation Administration (FAA).                However, the
Department did not make adequate progress in strengthening air traffic control
systems security and needs to continue enhancing oversight of IT investments.

FY 2007 will be a particularly challenging year for the Department. First, it has to
implement a consolidated IT infrastructure to support all Operating
Administrations (except FAA and the Surface Transportation Board) in the new
Headquarters building. This consolidated IT infrastructure presents opportunities
to eliminate fragmented IT operations; however, it will require a higher level of
security protection—one that has not yet been tested. In addition, about
230 systems—more than half of the Department’s total inventory—are due for
security recertification and have to meet new security standards. The major
challenges facing DOT in the IT security and investment areas include the
following:

 • Enhancing air traffic control systems security through resource commitment
   and progress measurement,

 • Meeting new security standards while recertifying systems security,

 • Securing the consolidated IT infrastructure and eliminating Operating
   Administrations’ fragmented systems backup/recovery sites, and

 • Working with Operating Administrations to strengthen oversight of IT
   investment and to streamline duplicative IT systems.
                                                                                 49

Enhancing Air Traffic Control Systems Security Through Resource
Commitment and Progress Measurement
The President has designated air traffic control systems a critical national
infrastructure due to the important role commercial aviation plays in fostering and
sustaining the national economy and ensuring citizens’ safety and mobility. In
FY 2004, based on audit findings, FAA made a strong commitment to enhancing
the security protection of air traffic control systems. One of its promises was to
complete security reviews of all operational air traffic control systems—at
en route, approach control, and airport terminal facilities—between FY 2005 and
FY 2007. This is critical to protecting air traffic control systems because security
vulnerabilities could inadvertently be created when changes are made to the
“baseline” systems to meet local operational needs.

FAA made little progress in reviewing operational air traffic control systems
security until after April 2005, when the Inspector General sent a letter to the FAA
Administrator expressing concern over the slow pace of the corrective action. By
the end of FY 2005, FAA had conducted initial reviews at all en route facilities,
representing a clear step in the right direction. However, FAA did not follow
through with this effort during FY 2006 because of, according to FAA officials, a
funding shortage.

In October of this year, the FAA Chief Information Officer (CIO) and the head of
the Air Traffic Organization committed to developing a plan by the end of
December 2006 detailing the approach FAA will take during FY 2007 to evaluate
security differences between systems used to direct air traffic at terminal and
tower facilities and the “baseline” systems previously tested in its computer
laboratory. If this process is implemented effectively, it will significantly
strengthen security protection of air traffic control systems.

Another FAA promise was to develop a contingency plan to restore more than
essential air services in case of prolonged service disruptions at en route centers.
FAA’s existing business continuity plan has worked well in the past to ensure
flight safety when dealing with temporary, less severe disruptions.

In FY 2005, we reported that FAA had identified a contingency strategy to deal
with prolonged service disruptions but was years away from its implementation.
In October of this year, the FAA Deputy Administrator informed us that FAA had
identified an interim solution based on the results of an engineering study. The
Deputy Administrator also made a strong commitment to fund this interim
solution with existing FAA resources.

We recognize that FAA faces critical decisions in balancing its priorities and using
its funds at a time of increasingly tight budgets. Yet, issues concerning the
                                                                                                     50

security of a critical national infrastructure should receive attention and support
from the Office of Management and Budget and Congress.

We plan to initiate an audit of FAA’s progress in reviewing operational systems
security and implementing the interim solution for contingency planning in
accordance with the approved plans.

Meeting New Security Standards While Recertifying Systems Security
In FY 2004, the Department made significant strides in reviewing and testing
information systems security and successfully increased the system certification
and accreditation (C&A) rate from 33 percent to over 90 percent. The C&A
process is a statutory requirement to ensure that information systems are
adequately secured to support agency missions and must be conducted every
3 years or upon major system change. The 2004 reviews are due for
recertification in 2007, as will be the systems moving to the new Headquarters
building (a major change). Consequently, DOT will be faced with the need to
recertify some 230 systems during FY 2007 (see Figure 9-1).


                  Figure 9-1: DOT Information Systems Estimated To Require
                            Certification and Accreditation Reviews,
                                     Fiscal Years 2005-2009

                        2009*                                    109


                        2008*                            87
          Fiscal Year




                        2007*                                                                230


                        2006                                            142


                        2005                                    104

                                0           50            100           150            200     250
                                                        Numbers of Systems Review ed
                                * DOT estimates as of September 28, 2006




What further complicates the issue is that these recertifications have to meet new
Government standards. The Federal Information Security Management Act of
2002 (FISMA) required the National Institute of Standards and Technology to
develop minimum Government security standards for Federal agencies. These
new standards become effective in March 2007 and may require security upgrades
in agency systems, such as greater encryption sophistication. In performing a
preliminary assessment on a safety-critical system, we found that it meets only
                                                                                                                 51

about two-thirds of the minimum security standards in one critical area. To meet
all of these challenges, the Operating Administrations will need to submit system
recertification work schedules for approval, identify security upgrade needs and
funding sources, and report progress against approved schedules throughout the
year.
Securing the Consolidated IT Infrastructure and Eliminating Operating
Administrations’ Fragmented Systems Backup/Recovery Sites
Traditionally, each Operating Administration has managed its own IT
infrastructure (e. g., desktop computers, local area networks, and e-mail) in the
departmental Headquarters. These duplicative IT operations were expensive to
maintain and had inconsistent security protections—both physical and logical. 8
Since they were interconnected, security weaknesses in one Operating
Administration’s infrastructure could endanger others: in other words, the
agencies’ IT security was only as strong as the weakest link. As part of the move
to the new Headquarters, the Department seized the opportunity to consolidate
these IT infrastructure operations into one.

While the consolidated IT infrastructure can help strengthen Departmentwide
security protection and make IT operations more efficient, it needs to be
thoroughly tested before being accredited for operation. However, the plan and
schedule to implement and test this new infrastructure are still evolving, due to a
variety of move-related problems. If not properly secured, this consolidated
infrastructure could result in much greater harm to the integrity of departmental
system operations than would be the case if only one Operating Administration
were affected. The Department needs to allow sufficient time to thoroughly test
this new IT infrastructure before installing Operating Administration mission-
critical systems on the new infrastructure.

As part of this IT consolidation effort, the Department needs to identify a
consolidated backup/recovery site at a sufficient geographic distance from the new
Headquarters and conduct contingency testing for all Operating Administration
systems operating on the consolidated IT infrastructure after completing the
Headquarters move. Further, the CIO needs to direct that the Operating
Administrations not make additional investments to equip their individual
backup/recovery sites until decisions have been made for the consolidated
backup/recovery site. Operating Administrations have been responsible for
establishing their individual backup/recovery sites because they had separate IT
infrastructures. In FY 2003, we reported inadequate contingency planning and
testing at Operating Administration recovery sites. In addition, we reported that,

8
    Logical security consists of software safeguards for an organization’s systems, including user identification and
    password access, authentication, access rights, and authority levels. These measures are to ensure that only
    authorized users are able to perform actions or access information on a network or a workstation.
                                                                                52

to reduce the probability of losing both primary and backup sites to the same
disaster, the Department needed to develop guidance on the minimum geographic
distance between a system’s primary and recovery processing sites. We found
cases in which Operating Administrations’ recovery sites were within 10, 15, or
25 miles of primary sites.         In case of an emergency, those Operating
Administrations would likely lose both the primary and backup computers for
their mission-critical systems, such as safety inspection and grants management
systems, since natural disasters often cover areas larger than 25 miles.

Working With Operating Administrations To Strengthen Oversight of IT
Investment and To Streamline Duplicative IT Systems
Last year, we expressed concern over the departmental Investment Review
Board’s ability to provide value-added services when reviewing FAA’s major IT
investment projects. As a result, we recommended that the Department clarify the
Board’s authority and increase the Board’s capability to research potential project
cost, schedule, and performance shortfalls on complicated IT investments.
Subsequently, the Department confirmed that the Board, through advising the
Secretary, can influence budget decisions on all IT investments. During FY 2006,
the Board used this authority to enhance project management of a multibillion-
dollar investment project called FAA Telecommunications Infrastructure.

In terms of identifying problems associated with major IT investments, the
Department plans to delegate this responsibility to individual Operating
Administration review boards to oversee their specific IT investments. While we
support the idea of holding Operating Administrations more accountable for their
own projects, this will not be possible until the departmental Board establishes
clear performance measures for IT investments, such as Earned Value
Management (EVM) measures. However, we found that 70 percent of DOT’s
major IT investment projects met fewer than half of the Office of Management
and Budget’s criteria for EVM implementation. Currently, 13 departmental IT
investment projects are included in the Office of Management and Budget’s high-
risk list, 12 of which are related to air traffic control modernization—the
management of which remains on the Government Accountability Office’s high-
risk list, where it has been for more than 10 years. The departmental Board needs
to work with Operating Administration review boards to continue exercising
knowledgeable oversight of these major IT investments.

Another area requiring senior management attention is continuing to streamline
duplicative common systems for cost savings. In FY 2003, the Department
identified opportunities to consolidate duplicative systems used in 11 common
business areas across Operating Administrations, such as office IT infrastructure,
financial management, grants management, and training. During FY 2006, the
Department completed its consolidation of recruitment systems and will complete
                                                                             53

consolidation of IT infrastructures at the new Headquarters in FY 2007. Progress
has also been made in eliminating duplicative financial systems and teaming with
the Department of Housing and Urban Development to streamline grants
management systems. The Department needs to continue to actively pursue
streamlining these duplicative systems to realize the cost savings that
consolidation can offer.

For further information, the following reports and testimonies can be seen on
the OIG web site at http://www.oig.dot.gov:

 • DOT Information Security Program (October 2004, 2005, and 2006)
 • Security and Controls Over the Remote Maintenance and Management System,
   FAA
 • Security and Controls Over Technical Center Computer Systems, FAA
 • Security and Controls Over En Route Center Computer Systems, FAA
 • Office of the Chief Information Officer’s Budget, DOT
                                                                                                                  54



10. Strengthening DOT’s Coordination of Research,
         Development, and Technology Activities and Funding
The Department of Transportation’s (DOT) management strategy for research,
development, and technology (RD&T) activities is a relatively new initiative, and
this is the first year that the Office of Inspector General has reported it as an
emerging issue. DOT has taken significant steps in improving coordination of its
RD&T activities, but there are a few areas that bear watching to ensure long-term
benefits to the Department.

For 2007, DOT has requested over $1 billion for RD&T. (See Table 10-1 for a
listing of RD&T funding by Operating
Administration.) 9 These funds are used to        Table 10-1: RD&T Budget
support a wide assortment of RD&T projects          Request by Operating
and activities, including the Federal Aviation         Administration
                                                    FY 2007 Actual ($000)
Administration’s continued work on aviation
safety ($88 million), the Federal Highway         FHWA           $586,079
Administration’s Innovative Bridge Research       FAA            $263,148
and Development program ($11.2 million), the      NHTSA           $84,502
Pipeline and Hazardous Materials Safety           FTA             $61,685
Administration’s pipeline safety research         FRA             $38,646
($9.7 million), and the Federal Railroad          PHMSA           $12,236
Administration’s Train Occupant Protection        FMCSA           $12,458
Program ($4.95 million). While many of these      RITA              $4,362
RD&T programs are highly specialized, others      Other             $8,910
cut across various modes of transportation—
                                                     Total     $1,072,026
such as human factors research. 10

In 2005, DOT took two significant steps designed to improve the coordination of
the various research efforts and to maximize the Department’s RD&T
investments. The first involved the establishment of the Research and Innovative
Technology Administration (RITA) in accordance with the Norman Y. Mineta
Research and Special Programs Improvement Act of 2004. RITA was established
in part to coordinate, facilitate, and review the Operating Administrations’ RD&T
programs and activities and to help identify and eliminate cross-modal project

9
     The dollar amounts listed in Table 10-1 are based on the amount of funds received by each Operating
     Administration. In some cases, however, funds are used to support programs administered by another DOT or state
     organization. For example, FHWA officials note that a large portion of their RD&T budget is used to fund programs
     administered by RITA, including $110 million for Intelligent Transportation Centers and $69.7 million for
     University Transportation Centers. Another $165.7 million is dedicated Federal-Aid Highway funds apportioned to
     the states for research.
10
     Human factors research is an area in which cross-modal coordination has occurred for many years through the
     Human Factors Coordinating Committee.
                                                                                                                   55

redundancies. 11 A second step involved the creation of the RD&T Planning
Council.      Comprising senior DOT officials and chaired by the RITA
Administrator, the Planning Council (and subordinate Planning Team) was tasked
with ensuring “…cross-modal collaboration and coordination in the RD&T
initiatives within DOT and with external entities.” 12

RITA’s and the RD&T Planning Council’s ability to effectively coordinate the
Department’s RD&T program is affected by a number of factors. First, in an
August 2006 report, the Government Accountability Office (GAO) noted that
RITA lacked a strategic approach sufficient to ensure the Department is
effectively managing its RD&T investment. 13 Second, the Transportation
Research Board (TRB) in an August 2006 letter to the Acting Secretary of
Transportation cited the growth in congressional RD&T earmarks and the
resulting impact on DOT’s ability to manage its RD&T programs in support of
strategic objectives. Third, RITA and the RD&T Planning Council have limited
oversight authority and must rely on a consensus-based decision making process
to prevent unnecessary duplication of RD&T efforts and resolve cross-modal
differences. Finally, while the RD&T Planning Council has received significant
support from DOT’s senior leadership over the last year, it will be critical that
such support be maintained over the long term. As a result of these factors, we see
the Department’s efforts to ensure the effective coordination of RD&T activities
as an emerging issue.

Ensuring Effective Coordination of DOT’s RD&T Activities
Whereas RITA’s and the RD&T Planning Council’s overall challenge will be to
effectively coordinate the Department’s RD&T program, their success is largely
dependent on how well a number of key factors are addressed. First, GAO
recently reported that RITA’s ability to fulfill its mission is hampered by the lack
of a clear implementing strategy, established performance goals, and an evaluation
plan that indicates how the Agency’s coordination role will further DOT’s mission
or ensure the effectiveness of the Department’s RD&T investment. In particular,
GAO recommends that RITA develop a strategy to identify and review all RD&T
projects for duplication and to identify areas for joint efforts. Other issues
affecting RITA include the lack of a DOT-wide database for monitoring RD&T
programs and activities and vacancies in several key management positions (e.g.,
RITA Administrator and the Associate Administrator for the Office of Research,
Development and Technology).


11
     RITA also helps fulfill one of the initiatives in the President’s Management Agenda. That initiative calls for the
     implementation of investment criteria for research and development.
12
     DOT Order 1120.39A, “Research, Development and Technology Planning Council, Team, and Process,”
     May 2, 2005.
13
     U.S. Government Accountability Office, “Transportation Research: Opportunities for Improving the Oversight of
     DOT’s Research Programs and User Satisfaction with Transportation Statistics,” GAO-06-917, August 2006.
                                                                                                          56

A second factor deals with the growth in congressional RD&T earmarks and their
impact on RITA’s and the Planning Council’s ability to ensure the effective use
and allocation of DOT’s RD&T resources.               Between 1995 and 2003,
congressional earmarks of DOT’s research budget increased from 1 percent to
14 percent according to a 2005 study done by the University of California,
Berkeley. This study also noted that earmarks were especially high for surface
transportation programs. For example, between fiscal year (FY) 1997 and
FY 2003, congressional earmarks of the Federal Highway Administration’s
research budget increased from 12 percent to 29 percent. Likewise, earmarks were
over 40 percent of FY 2006 funding for the Federal Highway Administration
Surface Transportation Research, Development, and Deployment Program
(STRDD). 14 Moreover, in its August 2006 letter, TRB cited the dramatic growth
in earmarking and the resulting constraints on the Department’s ability to allocate
resources in a coherent and strategic manner. As a result, TRB called on DOT
“…to put forward a thoughtful and persuasive plan for RD&T investment.”
TRB’s hope is that such a plan will help foster executive branch and congressional
agreement on Federal RD&T funding for the Nation’s most pressing transportation
needs.

A third factor affecting RITA and the RD&T Planning Council involves their
ability to effectively resolve cross-modal differences. To date, the Council has
been instrumental in helping define RITA’s RD&T coordination role, drafting the
Department’s 5-year RD&T Strategic Plan, 15 and providing a Departmentwide
forum for reviewing, coordinating, and strengthening RD&T budget submissions.
Whether RITA and the Council will have similar success in achieving consensus
on cross-modal differences—such as eliminating areas of unnecessary
duplication—remains to be seen. For instance, DOT Order 1120.39A, “Research,
Development and Technology Planning Council, Team, and Process” simply
indicates that the “Planning Team shall adopt participative consensus-based
decision making procedures. In the absence of consensus, options for resolution
shall be referred to the RD&T Planning Council.” Since the Planning Council and
RITA do not have direct authority to adjudicate cross-modal RD&T
disagreements, both may face challenges in trying to prevent unnecessary
duplication without the assistance of DOT’s senior leadership.

Thus, the Department faces a number of challenges in the RD&T arena. RITA
needs to establish a clear implementing strategy for improving DOT-wide RD&T
coordination, DOT needs to develop an RD&T investment plan for gaining
executive branch and congressional agreement on funding DOT’s research
priorities, and the Planning Council needs to have the long-term support of senior

14
     Making up roughly half of FHWA’s authorized RD&T funding, STRDD includes a range of projects dealing with
     pavement, structures, environment, technology, highway safety, planning, and policy.
15
     This plan will serve as a guide for the Department’s RD&T investments over the next 5 years.
                                                                                 57

DOT leaders to prevent unnecessary duplication and resolve cross-modal
disagreements. These factors will all play a critical role in improving coordination
among the Operating Administrations and ensuring the best use of the
Department’s substantial RD&T investment.

For further information, the following reports and testimonies can be seen on
the OIG web site at http://www.oig.dot.gov:

 • Volpe’s Project Management Oversight
 • The Role and Functions of the Volpe National Transportation Systems Center
 • Improving Aviation Safety, Efficiency, and Security: FAA’s FY 2001 Budget
   Request for Research, Engineering, and Development
 • DOT’s Management and Oversight of University-Based Research
                                                                                         58


EXHIBIT. COMPARISON OF FY 2007 AND FY 2006 TOP
MANAGEMENT CHALLENGES
         Items in FY 2007 Report                         Items in FY 2006 Report
• Defining, Developing, and Implementing
  Strategies To Improve Congested Conditions
                                                                     —
  on the Nation’s Highways, Ports, Airways,
  and Borders
• FAA Reauthorization—Reaching Consensus       • Reauthorizing Aviation Programs—
  on a Financing Mechanism To Fund FAA           Establishing Requirements and Controlling
  and Establishing Funding Requirements          Costs Are Prerequisites for Examining FAA
                                                 Financing Options
• Responding to National Disasters and         • Working With Other Agencies To Respond
  Emergencies—Assisting Citizens and             to Disasters and Address Transportation
  Facilitating Transportation Infrastructure     Security
  Reconstruction
• Strengthening Efforts To Save Lives by        • Building on Recent Initiatives To Further
  Improving Surface Safety Programs               Strengthen Surface Safety Programs
• Aviation Safety—Performing Oversight That • Aviation Safety—Developing Effective
  Effectively Utilizes Inspection Resources and   Oversight Programs for Air Carrier
  Maintaining Aviation System Safety              Operations, Repair Station Maintenance, and
                                                  Operational Errors
• Making the Most of the Federal Resources      • Getting the Most for Every Taxpayer Dollar
  That Sustain Surface Transportation             Invested in Highway and Transit Projects
  Infrastructure Improvements by Continuing
  To Emphasize Project Oversight
• Achieving Reform of Intercity Passenger       • Reforming Intercity Passenger Rail To
  Rail                                            Improve Performance
• Improving Acquisition and Contract
  Management To Reduce Costs and Eliminate                           —
  Improper Payments
• Protecting, Monitoring, and Streamlining      • Improving Information Technology
  Information Technology Resources                Investment and Computer Security
• Strengthening DOT’s Coordination of
                                                                     —
  Research, Development, and Technology
  Activities and Funding
                                                • Ensuring That Reforms Are Implemented in
                       —                          the Maritime Administration’s Title XI Loan
                                                  Guarantee Program
                                                • Mitigating Flight Delays and Relieving
                       —                          Congestion—Actions Needed To Meet
                                                  Demand




Exhibit. Comparison of FY 2007 and FY 2006 Top Management Challenges
                                                                                                      59


           APPENDIX. OST COMMENTS



                                                                 Memorandum
           U.S. Department of
           Transportation
           Office of the Secretary
           of Transportation

           ACTION: Departmental Comments on the OIG Draft
Subject:
           Report – Top Management Challenges, Department of              Date:        October 31, 2006
           Transportation

           Phyllis F. Scheinberg
From:      Assistant Secretary for Budget and                             Reply to
                                                                           Attn. of:
            Programs/Chief Financial Officer


To:        Calvin L. Scovel III
           Inspector General

           We appreciate the opportunity to review and comment on the Office of Inspector
           General’s (OIG) Top Management Challenges Report for the Department of
           Transportation (DOT). We value the perspective offered by the OIG and your efforts to
           help the Department’s management ensure DOT’s programs are on track and its
           operations are effective, efficient and financially sound. We are pleased that the issues
           identified in this report largely coincide with Secretary Peter’s goals of continued
           improvement in transportation safety with particular effort directed at groups
           experiencing disproportionate crashes and fatalities, improving transportation system
           performance and reducing congestion. The Secretary has made clear that we need to seek
           21st century solutions to the 21st century issues we face. We are also pleased to note that
           DOT is taking meaningful actions relating to each of the management challenges
           identified in this report.

           We provide the following discussion, which offers some highlights of those actions, to be
           included in the final OIG Top Management Challenges report. Separately we provided
           OIG with detailed comments related to specific and technical issues in the draft report.

           Seeking New Solutions to Relieve Congested Transportation Systems

           Recognizing the burden that congestion places on our economy, environment, and public
           welfare, DOT launched a National Strategy to Reduce Congestion on America’s
           Transportation Network during the past year. Congestion in the Nation’s ports, rail
           systems and highways pose an increasingly significant threat to our economic vitality.



           Appendix. OST Comments
                                                                                       60

The Nation’s transportation systems must adjust to changing trade flows to enable the
efficient flow of goods throughout the economy. Congestion is also affecting the quality
of Americans lives by robbing them of time that could be spent with families and friends.
Under the Congestion Initiative, the Department is conducting intermodal efforts to
relieve urban congestion, unleash private sector investment resources, promote
operational and technological improvements, establish a “Corridors of the Future”
competition, target major freight bottlenecks and expand freight policy outreach, and
accelerate major aviation capacity projects. The Department recognizes the challenges
ahead and has issued its strategic plan for Fiscal Year (FY) 2007 and beyond that weaves
together a cooperative intermodal approach to improve transportation system efficiency
and enable the efficient flow of both passengers and freight.

Working to Identify Equitable Funding Mechanisms for FAA Reauthorization

The Department is working aggressively to explore possible alternative funding
mechanisms for the Federal Aviation Administration (FAA) in an effort to help to keep
this Nation’s aviation system second to none. FAA is conducting extensive outreach to
its stakeholders in order to understand the implications of alternative funding options.
FAA is refining its Cost Accounting System to clearly identify the cost of providing its
wide range of services to the various users of the National Airspace System (NAS). We
seek a funding mechanism that provides a more rational, equitable and stable system
along with appropriate incentives for system users and FAA to operate efficiently. The
increasing demands being placed on the NAS and evolving technologies with potential
application to air traffic control have brought about the need to focus on new approaches
to NAS management in the future. Through the Joint Planning and Development Office,
the Department, together with stakeholders, is working to bring future demands and
capabilities into focus in a Next Generation Air Transportation System.

Expeditious, Effective Transportation Services for Natural Disasters and
Emergencies

The Department’s role in responding to natural disasters and other emergencies is to
maintain readiness and provide the capability to quickly move the people and goods
necessary for emergency response and recovery, and over time to assist with
reconstruction. In addition, this year the President expanded the Department’s role
during times of emergency to include movement of the general population away from
danger. In response to an emergency, speed and efficiency of movement are the first and
most critical concerns. Nonetheless we recognize that effective stewardship also requires
that the Department provide transportation services in a manner that is economic and
derives the maximum benefit from each dollar expended. The Gulf Coast hurricanes of
2005 provided the largest test of the Department’s capabilities to date. The results of
these efforts were extensively reviewed and changes were implemented to improve future
performance. Additional work is continuing to ensure that prices charged during the
emergency conditions, were reasonable.




Appendix. OST Comments
                                                                                        61

Departmental Programs Continue to Focus on Improving Surface Transportation
Safety

Transportation safety is the primary focus of the Secretary and the Department. Thanks
to the efforts of organizations including the National Highway Traffic Safety
Administration (NHTSA), the Federal Motor Carrier Safety Administration (FMCSA),
and the Federal Railroad Administration (FRA) and others throughout the Department
continued progress has been achieved in reducing traffic fatalities related to alcohol
consumption and large truck crashes. Safety belt usage in private vehicles has risen to
record levels, and NHTSA continues to evaluate the efficacy of new active safety devices
such as vehicle stability control systems which offer significant potential for saving
additional lives. The Department continues to set aggressive targets for reducing
fatalities associated with surface transportation. Our detailed data analyses provide
information on both success and failure in meeting those goals, but also pinpoints new
trends, opportunities, and challenges. For example, analysis of motorcycle-related
fatalities pinpointed the need to address the trend of increased motorcycle use by older
populations. DOT is using such data and analyses to identify initiatives that will better
focus scarce Federal resources on emerging trends and identify opportunities for
significant safety improvement. Finally, the Department recognizes the need to establish
tunnel management systems addressing the various features of highway and rail
transportation tunnels. The Federal Highway Administration (FHWA) and the Federal
Transit Administration (FTA) jointly developed the "Highway and Rail Transit Tunnel
Inspection Manual," to provide highway and rail transit tunnel owners guidance in
developing a comprehensive inspection and maintenance program.

FAA Efforts Continue to Improve Aviation Safety Oversight

FAA continued to oversee one of the safest aviation systems in the world during the past
year. While FAA continues to make progress on its system safety indicators, some
accidents did occur. As part of its efforts to ensure that the Nation maintains the
exceptionally high level of safety we have grown to expect in the face of new and
expanding system challenges, FAA continues to implement and refine its data-driven,
analytically based system to focus inspector resources on those areas of greatest risk. In
the operational environment, the latest available data show an improvement in FY 2006
compared to FY 2005. For example, the data show a 20 percent decrease in accidents for
the first 9 months of the FY for commercial air carriers and similar improvement for
general aviation. While these findings are encouraging, they represent a snapshot in time
and continued diligence will be required to achieve further improvement.

Efforts in Place to Maintain and Enhance Federal Funds Stewardship

The Department continues to expect and demand nothing less than full accountability
over the use of Federal funds and works hard to ensure that its expenditures are effective
and efficient. The Department recognizes that it must function effectively in a world
where there is increasing competition for scarce Federal resources. As recognized in the
management challenges report, the FHWA continued to strengthen its oversight of



Appendix. OST Comments
                                                                                          62

inactive obligations. As a result, it was able to utilize nearly three-quarters of a billion
dollars in funds for current transportation priorities. FTA also continues its strong
oversight of Federal funds for the construction of major new transit projects under its
New Starts Program and the replacement of transit infrastructure destroyed in the attacks
of September 2001.

DOT is a Proponent of Amtrak Reform and Effective Oversight

DOT, by working with the Congress and through its membership on the Amtrak Board of
Directors, has been a vocal proponent of effective Amtrak reform to increase
management accountability and encourage response to market forces. During the past
year, FRA enhanced the grant agreements it completes each year with Amtrak, to
improve oversight and provide meaningful requirements intended to improve
management of the railroad. We also note that Amtrak has implemented important
reforms in key areas, such as procurement, that offer the potential for continuing
improvement in the future. Overall, Amtrak must focus on those services and markets
with the greatest return on investment to achieve long-term success. The type and extent
of future Federal support should be commensurate with a 21st century national passenger
rail system. We are continuing to work with Amtrak and the Congress to bring about
effective intercity passenger rail reform.

DOT Maintains Effective Acquisition and Contracting Policies

The Department appreciates the OIG report’s recognition of FHWA’s improved oversight
of inactive highway funds and agrees that heightened oversight would benefit the overall
effectiveness of acquisition and procurement programs. DOT management has taken
initiative to implement improved systems. For example, the Office of the Senior
Procurement Executive has implemented new purchase card systems and processes to
enable the Department to continue to enjoy the purchase card program’s benefits while
improving internal controls. Also, the Office of Senior Procurement Executive is
working to strengthen controls over cooperative agreements, to improve planning for
contract audits, and to improve internal DOT suspension and debarment processes.
Further improvement must be set against a continuing outlook for constrained resources
available to implement additional or expanded controls. As a result, we must rely on
creative solutions, and the continued effective efforts by the both the audit and
investigative teams within the OIG.

Actions Continue to Address Information Technology Security, Investment and
Enterprise Architecture

DOT continues to strengthen its information technology (IT) infrastructure by addressing
computer security issues, improving IT acquisition oversight, and updating its enterprise
architecture. DOT has certified and accredited over 99 percent of its IT systems and
improved its Plan of Action and Milestone Process. Taken together, these steps assure
management that agency systems meet a minimum level of baseline requirements, and
where there are risks, a plan of action and milestones process is in place to mitigate those



Appendix. OST Comments
                                                                                        63

risks. In support of improving management controls, DOT exercised increased oversight
of at-risk major IT programs. Building on plans developed over the past year, and with
the support of the Office of Management and Budget, the Department continues to reduce
the risks associated with FAA Air Traffic Control Modernization. Finally, the coming
year brings a particularly challenging IT environment in which the Department must
continue to fulfill the high standards established for Federal IT systems while
consolidating its IT environment and moving to a new headquarters building.

New Departmental Focal Point for Coordinating Research, Development and
Technology

The Research and Innovative Technology Administration (RITA) offers the Department a
single, focused entity to coordinate, facilitate and evaluate its research, development and
technology (RD&T) activities. RITA’s efforts include advancing innovative technologies
and providing comprehensive transportation statistics research, analysis, and reporting.
RITA is striving to excel in its RD&T coordination role while facing the administrative
challenges of standing up a new organization amid pervasive resource challenges. In the
face of these issues it is gratifying to see that a recent Government Accountability Office
(GAO) report noted the significant progress RITA has achieved since GAO last reviewed
the Department’s RD&T coordination activities. While much has been achieved, we
recognize that RITA has just embarked on a journey that will require much work and
sufficient resources to meet the Mineta Act mandates.

In conclusion, we appreciate and benefit from perspective offered by the OIG and seek to
make the best use of information from its reports in improving the Department’s
programs. The issues identified in this report align well with the Department’s efforts to
enable the Nation to benefit from a safe, efficient, and effective transportation system.
Finally, we look forward to a constructive exchange of ideas and information with you in
each of these areas.




Appendix. OST Comments
The following pages contain textual versions of the graphs and charts found in this
document. These pages were not in the original document but have been added here
to assist screenreaders.
                 Report on Top Management Challenges (FY 2007)

                          Section 508 Compliant Presentation

Table 1-1. Status of Major New Runway Projects, September 2006

       Airport           Initial OEP (June          Current Estimated         Phase      Current Cost
                          2001) Estimated           Completion Date                       Estimate*
                         Completion Date                                                  (in Millions)
 Boston Logan                 Dec 2005             Nov 2006          Construction       $87
 Philadelphia            Not in initial OEP        Dec 2007          Construction       $65
 Seattle-Tacoma              Nov 2006              Nov 2008          Construction    $1,129
 Los Angeles             Not in initial OEP        Jun 2008          Construction      $333
 Washington-Dulles       Not in initial OEP        Nov 2008          Construction      $243
 Chicago O’Hare          Not in initial OEP        Nov 2008          Construction      $619
 (Phase I)
* Estimated cost data for Boston Logan, Philadelphia, Seattle-Tacoma, Los Angeles, and
  Washington-Dulles were obtained from airport sponsors. Estimated cost data for
  Chicago O’Hare were obtained from an FAA update to its quarterly report.

Figure 3-1: Departmental Disaster Involvement

 Year                               2001           2002       2003           2004       2005
 Incidents                             1              2          1              4          8
 Mission Assignments                   8              4         19             55         56
Source: Office of the Secretary

Figure 4-1: Actual Highway Fatality Rates Lag Targeted Rates
(Fatality rates are shown as the number of fatalities per 100 million vehicle-miles
traveled.)

 Year                             2001     2002     2003    2004     2005    2006     2007    2008
 Actual Fatality Rate              1.51     1.51     1.48    1.45     1.47       0        0       0
 Target Rate                       1.50     1.40     1.40    1.38     1.38    1.38     1.38    1.00
 Projected Rate                       0        0        0       0        0    1.44     1.42    1.41
Source: National Highway Traffic Safety Administration budget information for actual
fatality rates and target rates
Projected rates for 2006, 2007, and 2008 were calculated using the National Highway
Traffic Safety Administration’s forecasting methodology.
Figure 4-2: Trends in the Number and Rate of Train Accidents

 Year    Number of Train Accidents         Rate of Train Accidents per
                                           Million Train Miles Traveled
1995                            2,459                              3.67
1996                            2,443                              3.64
1997                            2,397                              3.54
1998                            2,575                              3.77
1999                            2,768                              3.89
2000                            2,983                              4.13
2001                            3,023                              4.25
2002                            2,738                              3.76
2003                            3,007                              4.04
2004                            3,366                              4.37
2005                            3,169                              4.01
Source: Federal Railroad Administration

Figure 5-1: Runway Incursions FY 1999 to FY 2005

  Fiscal Year Runway Incursions
      1999                      329
      2000                      405
      2001                      407
      2002                      339
      2003                      323
      2004                      326
      2005                      327
     2006*                      305
Source: Federal Aviation Administration
* FY 2006 preliminary data for 11 months

Figure 5-2: Serious Runway Incursions FY 1999 to FY 2005

  Fiscal Year Serious Runway Incursions
      1999                              69
      2000                              67
      2001                              53
      2002                              37
      2003                              32
      2004                              28
      2005                              29
     2006*                              27
Source: Federal Aviation Administration
* FY 2006 preliminary data for 11 months
Figure 9-1: DOT Information Systems Estimated To Require Certification and
Accreditation Reviews, Fiscal Years 2005-2009

 Fiscal Year Number of Systems Reviewed
    2009*                                109
    2008*                                 87
    2007*                                230
     2006                                142
     2005                                104
* DOT estimates are as of September 28, 2006.

Table 10-1: RD&T Budget Request by Operating Administration
FY 2007 Actual ($000)

 FHWA             $586,079
 FAA              $263,148
 NHTSA              $84,502
 FTA                $61,685
 FRA                $38,646
 PHMSA              $12,236
 FMCSA              $12,458
 RITA                $4,362
 Other               $8,910
    Total        $1,072,026
